No. 19In the

Supreme Court of the United States
ROBERT SANCHEZ TURNER,
Petitioner,
v.
AL THOMAS, JR., IN HIS INDIVIDUAL CAPACITY
AND HIS OFFICIAL CAPACITY AS CHIEF OF
CHARLOTTESVILLE POLICE DEPARTMENT; CITY
OF CHARLOTTESVILLE, VIRGINIA; W. STEVEN
FLAHERTY, IN HIS INDIVIDUAL CAPACITY,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fourth Circuit

PETITION FOR A WRIT OF CERTIORARI
John M. Shoreman
McFadden & Shoreman
1050 Connecticut Avenue, NW,
Suite 500
Washington, DC 20036
(202) 772-3188

Mario B. Williams
Counsel of Record
NDH Lawyers
44 Broad Street, NW, Suite 200
Atlanta, Georgia 30303
(404) 254-0442
mwilliams@ndh-law.com

Julie Oinonen
Williams Oinonen LLC
44 Broad Street, NW, Suite 200
Atlanta, Georgia 30303
(404) 654-0288
Counsel for Petitioner
291871

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
The following questions stem from the Fourth
Circuit’s Published Opinion regarding claims asserted
by Mr. Turner:
1.

What analytical framework applies to the statecreated danger doctrine regarding (1) what
constitutes an affirmative act; (2) whether a
government action must create a risk of harm
to a specific individual or the public at large;
(3) whether a government actor must possess
actual knowledge of a danger; (4) whether a
government’s affirmative action must shock the
conscience to constitute state-created danger;
and (5) whether a government’s affirmative action
must cut off all avenues of recourse available to
a person?

2.

Did the Fourth Circuit Court of Appeals err by
reasoning that a verbal order to law enforcement
officers to stand down in front of racially-charged
felonious assaults is not an affirmative act under
precedent of this Court and the Fourth Circuit
Court of Appeals, when the considered-true facts
demonstrated that law enforcement officials
sent subordinate law enforcement officers to the
location of anticipated racial violence with orders
to stand down in front of felonious assault until
the violence reached a level to justify declaring
a state of emergency so that the subject ‘rally’
could be moved to a preferred location?

ii
3.

Did the Fourth Circuit Court of Appeals err
by defining the right at issue in this case at
an unlawfully high level of generality that did
not take into account the considered-true facts
of this case nor the Fourth Circuit Court of
Appeals’ own binding precedent, which expressly
delineates the contours of qualified immunity in
the context of the state-created danger doctrine?

iii
PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT
Robert Sanchez Turner is the Petitioner. The
Respondents are Al Thomas, Jr., in his individual capacity
as Chief of Charlottesville Police Department, and W.
Steven Flaherty, in his individual capacity.

iv
RELATED CASES STATEMENT
• Turner v. Thomas, No. 18-1733, U.S. Court of Appeals
for the Fourth Circuit. Judgment Entered July 19, 2019
• Turner v. Thomas, No. 3:17-cv-64-NKM-JCH, U.S.
District Court for the Western District of Virginia.
Judgment Entered May 29, 2018.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT . . . . . . . . . . . . . . .  iii
RELATED CASES STATEMENT  . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . x
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . .  xi
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISION INVOLVED . . . . . 1
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
A. Factual background . . . . . . . . . . . . . . . . . . . . . . . . 4
1.

The event at issue . . . . . . . . . . . . . . . . . . . . . . 4

2.

Facts relevant to revoking protections
at Emancipation Park if Mr. Kessler
insisted on holding the rally there . . . . . . . . 5

vi
Table of Contents
Page
3.

Facts relevant to the stand down order  . . . 5

B. District Court’s Decision . . . . . . . . . . . . . . . . . . . . 6
1.

T he D i st r ic t Cou r t ’s O r der on
affirmative acts sufficient for the
state-created danger doctrine . . . . . . . . . . . 6

C. The Fourth Circuit Court of Appeals
Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
STATEMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
REASONS FOR GRANTING THE PETITION . . . . . 8
I.

The Supreme Court has not addressed
this issue in many years  . . . . . . . . . . . . . . . . . . . . 9

II. The lower cour ts need precedential
guidance well beyond DeShaney  . . . . . . . . . . . . 10
a.

W hat constitutes an aff ir mative
act? No guidance from Deshaney . . . . . . . . 11
i.

The First and Fifth Circuits . . . . . . . . 12

ii. The Second and Eighth Circuits  . . . . 13
b.

Must government action create a risk of
harm to a specific individual or the public
at large? No guidance from DeShaney . . . 15

vii
Table of Contents
Page
i.

The Seventh Circuit . . . . . . . . . . . . . . . 15

ii. The Third, Sixth, Eighth, and
Tenth Circuits  . . . . . . . . . . . . . . . . . . . . 15
iii. The Second, Fourth, Ninth, and
D.C. Circuits  . . . . . . . . . . . . . . . . . . . . . 16
c.

Must the government possess actual
knowledge of a danger or should the focus
be on the government actor’s conduct
and its resultant effect on the claimant?
No guidance from DeShaney . . . . . . . . . . . 16
i.

The Third and Sixth Circuits  . . . . . . .  17

ii. The Eighth, Ninth, and Tenth
Circuits  . . . . . . . . . . . . . . . . . . . . . . . . .  17
iii. The Seventh Circuit . . . . . . . . . . . . . . . 18
iv. The Fourth, Eleventh, and D.C.
Circuits . . . . . . . . . . . . . . . . . . . . . . . . . . 18
d.

Must government conduct shock the
consciousness or is merely causing
ha r m su f f icient t o const itut e a
state-created danger? No guidance
from DeShaney . . . . . . . . . . . . . . . . . . . . . . . 19
i.

The Second, Third, Eighth, and
Ninth Circuits  . . . . . . . . . . . . . . . . . . . . 19

viii
Table of Contents
Page
ii. The Fourth, Seventh, Tenth,
Eleventh, and D.C. Circuits  . . . . . . . . 20
e.

Must the test require all avenues
of escape to be exhausted before a
government actor may be potentially
liable? No guidance from DeShaney . . . . . 20
i.

The Seventh Circuit . . . . . . . . . . . . . . . 21

ii. The Ninth Circuit . . . . . . . . . . . . . . . . . 21
III. The Fourth Circuit’s holding is inconsistent
with prior decisions of this Court because
it conflicts with the intent of § 1983 . . . . . . . . . . 21
IV. The Fourth Circuit violated this Court’s
precedent by defining the right at issue at a
high level of generality, while also refusing
to apply its own controlling precedent . . . . . . . . 23
a.

Legal standard . . . . . . . . . . . . . . . . . . . . . . . 23

b.

This Court should reject the Fourth
Circuit’s opinion, as it fails to apply
the contours the Fourth Circuit,
it sel f, e st abl i shed for dec id i ng
qualified immunity with respect to
the state-created danger doctrine . . . . . . . 25

ix
Table of Contents
Page
c.

This Court should reject the Fourth
Circuit’s sweeping generalizations,
i nclud i ng its cha ract er i zation
of felonious assaults as ‘suspicious
circumstances’  . . . . . . . . . . . . . . . . . . . . . . . 28

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

x
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
FOURTH CIRCUIT, FILED JULY 19, 2019 . . . . . 1a
APPENDIX B — MEMORANDUM OPINION
OF THE UNITED STATES DISTRICT
COURT FOR THE WESTERN DISTRICT
OF V IRGINI A , CH A RLOT TES V ILLE
DIVISION, FILED MAY 29, 2018 . . . . . . . . . . . . . 12a

xi
TABLE OF CITED AUTHORITIES
Page
Cases
Anderson v. Creighton,
483 U.S. 635 (1987) . . . . . . . . . . . . . . . . . . . . . . . . 23, 24
Archie v. City of Racine,
847 F.2d 1211 (7th Cir. 1988) . . . . . . . . . . . . . . . . . . . 23
Armijo v. Wagon Mound Pub. Sch.,
159 F.3d 1253 (10th Cir. 1998) . . . . . . . . . . . . . . . . . . 20
Bell Atl. Corp. v. Twombly,
550 U.S. 544 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Butera v. D.C.,
235 F.3d 637 (D.C. Cir. 2001) . . . . . . . . . . . . . . . passim
Carlton v. Cleburne County, Arkansas,
93 F.3d 505 (8th Cir. 1996) . . . . . . . . . . . . . . . . . . . . . 16
City & Cty. of San Francisco, Calif. v. Sheehan,
135 S. Ct. 1765 (2015)  . . . . . . . . . . . . . . . . . . . . . . . . . 24
DeShaney v.
Winnebago County Dept. of Social Servs.,
489 U.S. 189 (1989)  . . . . . . . . . . . . . . . . . . . . . . . passim
Dwares v. City of New York,
985 F.2d 94 (2d Cir. 1993) . . . . . . . . . . . . . . . . . . . . . . 13

xii
Cited Authorities
Page
Estate of Romain v. City of Grosse Pointe Farms,
935 F.3d 485 (6th Cir. 2019) . . . . . . . . . . . . . . . . . . . .  17
Estate of Rosenbaum by Plotkin v.
City of New York,
975 F. Supp. 206 (E.D.N.Y. 1997)  . . . . . . . . . . . . . . . 14
Estate of Smith v. Marasco,
430 F.3d 140 (3d Cir. 2005) . . . . . . . . . . . . . . . . . . . . . 20
Estate of Stevens v. City of Green Bay,
105 F.3d 1169 (7th Cir. 1997) . . . . . . . . . . . . . . . . . . . 21
Freeman v. Ferguson,
911 F.2d 52 (8th Cir. 1990) . . . . . . . . . . . . . . . . . . . . . 14
Gladden v. Richbourg,
759 F.3d 960 (8th Cir. 2014) . . . . . . . . . . . . . . . . . . . . 19
Graham v. Connor,
490 U.S. 386 (1989) . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Hope v. Pelzer,
536 U.S. 730 (2002) . . . . . . . . . . . . . . . . . . . . . . . . 24, 27
Ingraham v. Wright,
430 U.S. 651 (1977) . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Irish v. Maine,
849 F.3d 521 (1st Cir. 2017)  . . . . . . . . . . . . . . . . . . . . 12

xiii
Cited Authorities
Page
Jackson v. Indian Prairie Sch. Dist. 204,
653 F.3d 647 (7th Cir. 2011) . . . . . . . . . . . . . . . . . . . . 20
Johnson v. City of Seattle,
474 F.3d 634 (9th Cir. 2007) . . . . . . . . . . . . . .  11, 19, 21
Kallstrom v. City of Columbus,
136 F.3d 1055 (6th Cir. 1998) . . . . . . . . . . . . . . . . . 15-16
Kennedy v. City of Ridgefield,
439 F.3d 1055 (9th Cir. 2006) . . . . . . . . . . . . . . . . . . .  17
Mann v. Palmerton Area Sch. Dist.,
872 F.3d 165 (3d Cir. 2017) . . . . . . . . . . . . . . . . . . . . .  17
Matican v. City of New York,
524 F.3d 151 (2d Cir. 2008) . . . . . . . . . . . . . . . . . . . . . 16
Matthews v. Bergdorf,
889 F.3d 1136 (10th Cir. 2018)  . . . . . . . . . . . . . . . . . . 18
McKenzie v. Talladega City Bd. of Educ.,
242 F. Supp. 3d 1244 (N.D. Ala. 2017)  . . . . . . . . . . . 19
Monell v.
Dep’t of Soc. Servs. of City of New York,
436 U.S. 658 (1978) . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Monfils v. Taylor,
165 F.3d 511 (7th Cir. 1998)  . . . . . . . . . . . . . . . . . . . . 21

xiv
Cited Authorities
Page
Monroe v. Pape,
365 U.S. 167 (1961)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Montgomery v. City of Ames,
829 F.3d 968 (8th Cir. 2016) . . . . . . . . . . . . . . . . . . . .  17
Morse v. Lower Merion School Dist.,
132 F.3d 902 (3d Cir. 1997) . . . . . . . . . . . . . . . . . . . . . 15
Mullenix v. Luna,
136 S. Ct. 305 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . . 24
Munger v. City of Glasgow Police Dep’t,
227 F.3d 1082 (9th Cir. 2000) . . . . . . . . . . . . . . . . . . . 21
Okin v. Vill. of Cornwall-On-Hudson Police Dep’t,
577 F.3d 415 (2d Cir. 2009) . . . . . . . . . . . . . . . . . . 14, 20
Pena v. DePrisco,
432 F.3d 98 (2d Cir. 2005) . . . . . . . . . . . . . . . . . . . . . . 11
Phillips v. Cty. of Allegheny,
515 F.3d 224 (3d Cir. 2008) . . . . . . . . . . . . . . . . . .  17, 20
Pinder v. Johnson,
54 F.3d 1169 (4th Cir. 1995) . . . . . . . . . . . . . . . . passim
Reed v. Gardner,
986 F.2d 1122 (7th Cir. 1993) . . . . . . . . . . . . . . . . 15, 18

xv
Cited Authorities
Page
Rodriguez-Cirilo v. Garcia,
115 F.3d 50 (1st Cir. 1997)  . . . . . . . . . . . . . . . . . . . . . 12
Saenz v. City of McAllen,
396 F. App’x 173 (5th Cir. 2010) . . . . . . . . . . . . . . . . . 13
Saucier v. Katz,
121 S. Ct. 2151 (2001)  . . . . . . . . . . . . . . . . . . . . . . . . . 24
Shumpert v. City of Tupelo,
905 F.3d 310 (5th Cir. 2018) . . . . . . . . . . . . . . . . . 12, 13
Tolan v. Cotton,
572 U.S. 650 (2014)  . . . . . . . . . . . . . . . . . . . . . . . . 10, 24
Town of Castle Rock, Colo. v. Gonzales,
545 U.S. 748 (2005) . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Turner v. Thomas,
313 F. Supp. 3d 704 (W.D. Va. 2018)  . . . . . . . . . . . . . . 1
Turner v. Thomas,
930 F.3d 640 (4th Cir. 2019) . . . . . . . . . . . . . . . . . . 1, 28
United States v. Lanier,
117 S. Ct. 1219 (1997)  . . . . . . . . . . . . . . . . . . . . . . . . . 24
Waddell v. Hendry Cnty. Sheriff’s Office,
329 F.3d 1300 (11th Cir. 2003) . . . . . . . . . . . . . 18-19, 20

xvi
Cited Authorities
Page
Weiland v. Loomis,
938 F.3d 917 (7th Cir. 2019)  . . . . . . . . . . . . . . . . . . . . 18
Wilson v. Layne,
119 S. Ct. 1692 (1999)  . . . . . . . . . . . . . . . . . . . . . . . . . 23
Wright v. D.C.,
799 F. Supp. 2d 1 (D.D.C. 2011) . . . . . . . . . . . . . . . . . 16
Statutes
U.S. Const. amend. XIV  . . . . . . . . . . . . . . . . . . . . . . . . 1, 2
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim

1
PETITION FOR A WRIT OF CERTIORARI
Mr. Turner respectfully submits his petition for a
writ of certiorari to review the Fourth Circuit Court of
Appeals’ Published Opinion.
OPINIONS BELOW
The Published Opinion of the United States Court
of Appeals for the Fourth Circuit, which affirmed the
District Court, is available at Turner v. Thomas, 930
F.3d 640 (4th Cir. 2019), and is reprinted in the appendix
at Appx. 1a-11a. The Order of the United States District
Court for the Western District of Virginia, which granted
qualified immunity to Respondents, is available at Turner
v. Thomas, 313 F. Supp. 3d 704 (W.D. Va. 2018), aff’d, 930
F.3d 640 (4th Cir. 2019) and is reprinted at Appx. 12a-32a.
JURISDICTION
The United States Court of Appeals for the Fourth
Circuit rendered its Published Opinion on July 19, 2019.
(Appx. 1a-11a.) As a result, this Court has jurisdiction
under 28 U.S.C. § 1254(1).
CONSTITUTIONAL PROVISION INVOLVED
The Due Process Clause of the Fourteenth Amendment
of the United States Constitution provides, in relevant
part:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the

2
State wherein they reside. No State shall
make or enforce any law which shall abridge
the privileges or immunities of citizens of the
United States; nor shall any State deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.
[U.S. Const. amend. XIV.]
INTRODUCTION
One thing is for no generalized duty to exist requiring
law enforcement officers to protect people from random
acts of violence. Quite another thing is for law enforcement
officials to know that one of the most violent, racially
charged riots in recent history is about to occur; know
the specific location and time that it will occur; know the
location is a small confined park, and then deliberately
order subordinate officers to go to said park, watch people
be savagely beaten and do absolutely nothing—all so that
law enforcement could declare a state of emergency and
move the racist rally to a preferred venue, as was the
Respondents objective all along. It is important to note
that these officers did intervene to stop these beatings
but only after reaching their objective of permitting the
violence to reach a level that justified declaring a state
of emergency. This conduct caused Mr. Turner serious
emotional and physical injury, as law enforcement stood
about ten feet from him and casually looked on as he was
beaten in racist mob violence.
Breathtaking was the Fourth Circuit’s Opinion in
this case, which asserts that known, video-recorded and

3
racist, violent assaults/felonies were mere “suspicious
circumstances” that did not warrant officer intervention:
“[a]cting under Pinder’s teaching that state actors may
not be held liable for “st[anding] by and d[oing] nothing
when suspicious circumstances dictated a more active
role for them.” Moreover, the Fourth Circuit violated its
own precedent pertaining directly to qualified immunity
within the context of the state-created danger doctrine
by refusing to even address the expressed purpose of
its precedential opinion, in which it stated we “granted
en banc review… to define the contours of qualified
immunity under 42 U.S.C. § 1983 when a plaintiff alleges
an affirmative duty on the part of a police officer to protect
citizens from the actions of a third party.” The Fourth
Circuit’s Opinion represents a step back in time for a
circuit that includes Virginia, whose reputation took a
hit with respect to its Governor dressing up in blackface
with the nickname “coonman.”
This Court’s dicta in DeShaney has created division
amongst the lower courts’ regarding the so-called statecreated danger doctrine. Courts have developed diverging
analytical standards which have afflicted both government
actors and claimants, for decades, throughout our country.
Some of these significant inconsistencies include the
following: (1) what constitutes an affirmative act; (2)
whether a government action must create a risk of harm
to a specific individual or the public at large; (3) whether
a government actor must possess actual knowledge of a
danger; (4) whether a government’s affirmative action
must shock the conscience to constitute state-created
danger; and (5) whether a government’s affirmative action
must cut off all avenues of recourse available to a person.

4
Ultimately, this case will determine whether all law
enforcement agencies throughout our country can escape
liability after law enforcement officers, charged with
the duty to serve and protect, deliberately watch people
get savagely beaten while telling those very people that
“[w]e’ll not intervene unless given a command to do so,”
and protecting you is “not my job.” Mr. Turner asks this
Court to bring some precedential order to this situation
by not allowing the Fourth Circuit to treat the facts of
this case as merely a request for generalized protection
for an indiscernible group of people, when nothing could be
further from the truth. Moreover, if the Fourth Circuit’s
holding is allowed to stand, then the Circuit’s broad
holding of DeShaney forecloses a remedy intended by
§ 1983. DeShaney, 489 U.S. 189 (1989).
STATEMENT
A. Factual background
1.

The event at issue

The City of Charlottesville (the “City”) owns a park,
historically called Lee Park, which contained a statute of
Robert E. Lee. (JA, p. 12-13.) On June 5, 2017, the City
changed the park’s name from Lee Park to Emancipation
Park (the “Park”). Id. at p. 12. A plan to remove and sell
the statue of Robert E. Lee was announced and met with
protests. Id. at p. 13. Jason Kessler, leader of the white
nationalist group Unity & Security for America, opposed
both the name change and removal of the statute. Id. Mr.
Kessler organized a Unite the Right rally in the Park to
express this opposition. Id.

5
Initially granting a permit for the rally to be held at
Emancipation Park, the City later revoked that permit,
citing traffic congestion and the expected crowd size.
Id. at p. 14-15. Respondents announced the decision to
revoke the permit at a press conference, but never stated
that they would be unable to protect the demonstrators,
counterdemonstrators, and the public. Id. at p. 17. This
decision came after a closed-door meeting of the City
Council at which some representatives of law enforcement
were present. Id. at p. 19.
2.

Facts relevant to revoking protections at
Emancipation Park if Mr. Kessler insisted on
holding the rally there

After the revocation of the permit for the Unite the
Right rally at the Park, Chief Thomas initially assured Mr.
Kessler that all of the security precautions agreed upon
would still be offered. Id. at p. 20. The next day, however,
Mr. Kessler was informed by police representatives
that Chief Thomas had changed his mind; none of the
protections promised would be provided at Emancipation
Park. Id. at p. 21. In response, Mr. Kessler successfully
filed suit against the City to enjoin them from preventing
his demonstration on August 12, 2017. Id. at p. 23.
3.

Facts relevant to the stand down order

The Department of Homeland Security warned
Respondents Thomas and Flaherty, based on gathered
intelligence, that this rally would be very violent. (JA,
p. 31.) After Mr. Kessler insisted on holding the subject
rally at Emancipation Park, Chief Thomas and Colonel
Flaherty issued a stand down order to their respective

6
officers that created a special policy for the Unite the Right
rally. Id. at p. 24-26. Law enforcement officers at the scene
informed demonstrators that “[w]e’ll not intervene unless
given a command to do so.” Id. at p. 26. Subsequently,
racially charged violent acts broke out. Officers under
Respondents’ command observed these violent incidents
and did not intervene, as demanded by the stand down
order. Id. ¶ 59, 66. When asked if police were going to
respond to violent attacks, at least one officer stated,
“that’s not my job.” Id. ¶ 69.
The officers under the command of the Respondents
did not wear any riot gear to the rally. Eventually, the
violence reached a level that justified the Respondents
commanding subordinate officers to disperse the
protesters, and only then did officers leave the scene to
put on riot gear and return to Emancipation Park, where
protestors were led to the previously rejected McIntire
Park. Id.
After a sharply critical report, Respondent Thomas
stepped down as police chief of Charlottesville Police
Department. Trip Gabriel, Charlottesville Police Chief
Steps Down after Handling of Rallies Is Criticized,
New York Times (Dec. 18, 2017) https://www.nytimes.
com/2017/12/18/us/charlottesville-police-al-thomas.html.
B. District Court’s Decision
1.

The District Court’s Order on affirmative acts
sufficient for the state-created danger doctrine

The District Court dismissed Mr. Turner’s Complaint,
reasoning not that the stand down order was not an

7
affirmative act, but that there is no duty for police to
intervene. (Appx. 22a.) In making that ruling, the District
Court found that “the only individuals who engaged in
affirmative conduct were the third-party criminals.”
Id. The Court stated that “looking to the immediate
interactions between the officer and the plaintiff, Turner
has not alleged Defendants did anything to “directly”
cause his injuries.” Id. (internal citations omitted). The
District Court specifically stated that Turner only “alleges
that the Charlottesville Police and the Virginia State
Patrol officers stood and watched [the assault] for more
than thirty seconds, while doing nothing to intervene.” Id.
C. The Fourth Circuit Court of Appeals Decision
The Opinion of the Fourth Circuit Court of Appeals
is published. Thus, the findings and reasoning supporting
the Fourth Circuit’s statement, “[w]e agree with the
district court that the facts alleged in Turner’s complaint
do not amount to a violation of clearly established law.
Accordingly, we affirm,” is binding on the entire Circuit.
(Appx. 2a.) The Fourth Circuit’s position is fairly
represented by its statement that:
“Turner has put forth no facts suggesting
that a stand-down order crosses the line from
inaction to action when the state conduct in
Pinder and Doe did not. Acting under Pinder’s
teaching that state actors may not be held liable
for “st[anding] by and d[oing] nothing when
suspicious circumstances dictated a more active
role for them,” Thomas and Flaherty could
have reasonably concluded that a stand-down
order violated no constitutional right.” (Appx.
10a-11a.)

8
Based on that reasoning, the Fourth Circuit granted
qualified immunity.
STATEMENT
REASONS FOR GRANTING THE PETITION
The right at issue is the following:
Did government actors create a danger that
caused Mr. Thomas physical and emotional
harm by knowing and anticipating a violent
protest was to take place in a specified park
and then (1) ordering their subordinate officers
to appear at the park while (2) ordering those
same officers to permit felonious assaults in
accordance with a stand down order until a
state of emergency was declared and the racist
rally could be moved lawfully down the street
to Respondents’ preferred location?
The Fourth Circuit cut off any analysis of whether the
Respondents created a danger that caused Mr. Thomas
harm by first reasoning that an order to refrain from
intervening in racially charged violent assaults, under
both this Court’s precedent and Fourth Circuit precedent,
did not constitute an affirmative act in order to trigger
analysis under the state-created danger doctrine. After
establishing that point, the Fourth Circuit permitted
Respondents to do what this Court has routinely reversed
denials of qualified immunity for: define the right at issue,
for purposes of qualified immunity, at an unlawfully
high level of generality instead of the appropriate level
of specificity considering the actual recorded facts. In
doing so, the Fourth Circuit refused to address its own

9
precedent which easily demanded denial of qualified
immunity under the facts of this case.
Unfortunately, this Court has recently focused most of
its attention on reversing the denial of qualified immunity
for law enforcement rather than reversing the granting
of qualified immunity for law enforcement. Hopefully
this case can be different, given the serious divergence
between published opinions throughout every circuit’s
court of appeals, and the very essences and purpose of
§ 1983 being eroded by the Fourth Circuit Published
Opinion.
I.

The Supreme Court has not addressed this issue in
many years

The state-created danger doctrine arises as an
exception to the general rule that the government has no
duty to protect people from privately inflicted harms. See
DeShaney v. Winnebago County Dept. of Social Servs.,
489 U.S. 189, 200-202 (1989). In Deshaney, the Court held
that the Constitution does not impose affirmative duties on
the government, such as the duty to protect people from
privately inflicted harms. Id. However, the Court noted
two areas where a duty by the government to provide
protection does exist. First, a government has a duty to
protect when a special relationship arises between an
individual and the government, such as when an individual
is physically in government custody. Id. at 199-200.
Second, a government duty exists if the government took
an affirmative step to place the person in danger. See Id.
at 200-211; Butera v. D.C., 235 F.3d 637, 648–49 (D.C. Cir.
2001) (noting that federal circuit courts have relied on the
passage in DeShaney for the creation of a state-created
danger doctrine).

10
The Supreme Court has only engaged in a substantive
discussion of DeShaney one time, in Town of Castle Rock,
Colo. v. Gonzales, 545 U.S. 748, 755 (2005). In Gonzales,
a woman discovered her three daughters were missing
and suspected that her estranged husband, whom she
had a restraining order against, had taken the girls. A
Colorado law with mandatory language required the police
to enforce the terms of restraining orders in domestic
violence cases, but the police refused to help. That night,
the husband killed the three girls. The Supreme Court
held that even if a law is written in mandatory terms, no
law creates an “entitlement” because law enforcement
officers have discretion on how to enforce any law. The
Court’s stance in Gonzales caused significant confusion,
to the extent that the Fourth Circuit has reasoned, in this
case, that ordering officers to show to a rally at a specified
place and watch mob violence occur, without intervention,
is constitutionally permissible. Some lower courts seem
to agree.
Falling in line with the reasoning this Court granted
certiorari for in Tolan v. Cotton, 572 U.S. 650 (2014),
this case can help to ensure that the lower courts take a
consistent approach that both protects plaintiffs’ rights
and limits government liability under the Due Process
Clause. Without such guidance, plaintiffs in different
circuits are left with completely different standards —
which prevents cases, such as this one, from being tested
on their merits.
II. The lower courts need precedential guidance well
beyond DeShaney
The facts of this case fall under the interpretation of
DeShaney v. Winnebago County Dept. of Social Servs.,

11
489 U.S. 189, 200-202 (1989), which reasoned that a
government’s failure to protect an individual from private
violence, even in the face of known danger, generally,
does not violate the Due Process Clause. The circuits
are essentially relying on this Court’s dicta in DeShaney
to create the test for applying the state-created danger
doctrine. As a result, inconsistent analytical standards
have afflicted both the government and claimants, for
decades, throughout our country.
T h i s sec t ion w i l l a dd re s s t he se sig n i f ic a nt
inconsistencies, including (1) what constitutes an
affirmative act; (2) whether a government action must
create a risk of harm to a specific individual or the public
at large; (3) whether a government actor must possess
actual knowledge of a danger; (4) whether a government’s
affirmative action must shock the conscience to constitute
state-created danger; and (5) whether a government’s
affirmative action must cut off all avenues of recourse
available to a person.
a.

What constitutes an affirmative act? No
guidance from Deshaney

The state-created doctrine analysis, for all the circuit
courts, turns on whether government conduct at issue
constitutes an affirmative act or passive omission. See e.g.
Johnson v. City of Seattle, 474 F.3d 634, 640 (9th Cir. 2007)
(discussing whether police conduct was active or passive);
Pena v. DePrisco, 432 F.3d 98, 109 (2d Cir. 2005); Pinder
v. Johnson, 54 F.3d 1169, 1178 (4th Cir. 1995) (“Claims
involving omissions, or the failure to protect, are a third
area held to be non-actionable.”) It seems straightforward
that government actors have a duty to provide protection
from private violence when those same government actors

12
took an affirmative step that “create[ed] a dangerous
situation or render[] citizens more vulnerable to danger”,
but applying the state-created danger doctrine has caused
demonstrable division amongst lower courts, including
the circuit courts of appeal. Butera, 235 F.3d at 647 (D.C.
Cir. 2001). Due to the confusion about what constitutes an
affirmative act, some circuits have gone decades avoiding
the complexity of the doctrine, leaving perceived victims
without a remedy at all.
i.

The First and Fifth Circuits

Two circuits, the First and Fifth, have yet to hold
that the state-created danger doctrine is a viable claim of
action. Rodriguez-Cirilo v. Garcia, 115 F.3d 50, 51 (1st Cir.
1997) (avoiding addressing the “nettlesome legal question”
of whether “a police officer’s knowing refusal to carry out
the express terms of a non-discretionary detention order
can be deemed an ‘affirmative act.’”); Irish v. Maine, 849
F.3d 521, 526 (1st Cir. 2017) (stating, “[w]hile this circuit
has discussed the possible existence of the state-created
danger theory, we have never found it applicable to any
specific set of facts”); Shumpert v. City of Tupelo, 905 F.3d
310, 324 n.60 (5th Cir. 2018), as revised (Sept. 25, 2018),
cert. denied sub nom. Shumpert v. City of Tupelo, Miss.,
139 S. Ct. 1211, 203 L. Ed. 2d 206 (2019).
Seemingly, the First Circuit has been reluctant to
embrace the state-created danger doctrine out of concern
of turning every tort a government actor commits into
a constitutional violation. Rodriguez-Cirilo, 115 F.3d
at 57 (Campell, J., concurring) (quoting DeShaney, at
202). Indeed, the Fifth Circuit twice adopted the statecreated danger doctrine, only to later twice reverse itself.

13
Shumpert, 905 F.3d at 324 n.60; Saenz v. City of McAllen,
396 F. App’x 173, 177 (5th Cir. 2010) (unpublished) (“On two
occasions this court explicitly adopted the state created
danger theory but was ultimately reversed.”). Obviously,
Mr. Turner had little to zero chance of winning in these
circuits. Mr. Turner also failed to win in the Fourth
Circuit, where the Court of Appeals reasoned that a verbal
stand down order simply was not enough to cross the line
from inaction to action. Appx. 1a-11a.
ii.

The Second and Eighth Circuits

In stark contrast, Mr. Turner’s considered-true facts
would have met muster in both the Second and Eighth
Circuits. There, under controlling law, a police official’s
verbal order to officers not to intervene in private violence
is considered an affirmative act. In Dwares v. City of New
York, 985 F.2d 94 (2d Cir. 1993), a group of skinheads
attacked demonstrators in the presence of police who did
not intervene to protect the demonstrators. Protestors
alleged the police had conspired with the skinheads,
assuring the skinheads that “unless they got totally
out of control” they would face no interference from the
police. Id. at 99. The police conduct made the plaintiffs
more vulnerable to assault. Id. The court found that
prearranged official sanction by government actors of
privately inflicted injury violated the protestors’ rights
under the Due Process Clause. Id.
In fact, later opinions by the Second Circuit went
further, finding an affirmative act for purposes of the
state-created danger doctrine based on a police officer’s
inaction. The Second Circuit has read Dwares as holding
that an inactive police presence, by itself, can implicitly

14
signal official sanction of private violence, thus increasing
the likelihood of assault on victims. Okin v. Vill. of
Cornwall-On-Hudson Police Dep’t, 577 F.3d 415, 429 (2d
Cir. 2009); see Estate of Rosenbaum by Plotkin v. City of
New York, 975 F. Supp. 206, 217 (E.D.N.Y. 1997) (finding
that by inappropriately implementing a policy of restraint
by police officers toward rioters and ignoring pleas from
persons to intervene, the police emboldened participants
in the violence and increased the danger to victims of
hate crimes).
The Eighth Circuit has opined like results. The
plaintiffs in Freeman v. Ferguson, 911 F.2d 52 (8th Cir.
1990), faced a similar situation when a government actor
took a specific action that increased the danger and
resulted in the deaths of two people. In Freeman, a wife
complained directly to police and demanded enforcement
of a restraining order against her husband. Id. at 53-54.
However, the chief of police ordered his officers not to
interfere since the husband allegedly was a close friend
of the chief’s; consequently, the husband killed the wife
and daughter. Id. at 53. The court reasoned that the police
chief’s conduct was an affirmative action which increased
the danger faced by the decedents and thus warranted the
application of the state-created danger exception. Id. at 55.
Mr. Turner’s chance of success in the Eighth and
Second circuits under his considered-true facts seems
promising. But Mr. Turner’s fortunes about vindicating
his constitutional rights should not depend on which circuit
he resides in, when police officers stand ten feet from him,
casually watching as he is beaten.

15
b.

Must government action create a risk of harm
to a specific individual or the public at large?
No guidance from DeShaney

The circuit courts disagree whether a government
action must create a risk of harm to a specific individual
or the public at large.
i.

The Seventh Circuit

In Reed v. Gardner, 986 F.2d 1122, 1127 (7th Cir.
1993), the Seventh Circuit rejected a requirement that
a government action must create a risk of harm to a
specific individual. The court reasoned that “[w]hen the
police create a specific danger, they need not know who
in particular will be hurt. Some dangers are so evident,
while their victims are so random, that state actors can
be held accountable by any injured party.” Id. Mr. Turner
likely wins in this circuit.
ii.

The Third, Sixth, Eighth, and Tenth
Circuits

However, the Third, Sixth, Eighth, and Tenth Circuit
do require that a specific individual be placed in danger.
For example, in Morse v. Lower Merion School Dist., 132
F.3d 902 (3d Cir. 1997), a public-school district did not
have a duty to a teacher shot and killed by a private actor
who entered through a rear door left unlocked. The court
noted, “the state is not obligated to protect its citizens from
the random, violent acts of private persons. But it does
not appear this limitation necessarily restricts the scope
of § 1983 to those instances where a specific individual is
placed in danger.» Id. at 913; see also Kallstrom v. City

16
of Columbus, 136 F.3d 1055, 1066 (6th Cir. 1998) (“The
state must have known or clearly should have known
that its actions specifically endangered an individual.”);
Carlton v. Cleburne County, Arkansas, 93 F.3d 505, 508
(8th Cir. 1996) (“[C]onduct by government officials directly
responsible for placing particular individuals in a position
of danger [is necessary].”). Who knows what would have
happened to Mr. Turner had the event occurred in any
of these circuits?
iii. The Second, Fourth, Ninth, and D.C.
Circuits
By contrast, the Second, Fourth, Ninth, and D.C.
Circuits have not taken a position, at all, on the issue.
Matican v. City of New York, 524 F.3d 151, 157 (2d Cir.
2008) (discussing state-created danger doctrine and not
requiring a distinction between a specific individual or the
public at large); Hernandez, 897 F.3d at 1133 (noting the
test in the Ninth Circuit is whether a plaintiff was placed
in a position of danger); Wright v. D.C., 799 F. Supp. 2d
1, 8 (D.D.C. 2011) (noting that “an individual can assert
a substantive due process right to protection”) (citing
Butera, 235 F.3d at 651).
c.

Must the government possess actual knowledge
of a danger or should the focus be on the
government actor’s conduct and its resultant
effect on the claimant? No guidance from
DeShaney

The question of whether a government actor must
possess actual knowledge that a danger exists has also
produced an inter-circuit conflict. Similar to the individual

17
public distinction noted above, while a government’s actual
knowledge of who will be hurt limits liability, it is not
always relevant to the analysis. See DeShaney, 489 U.S.
at 200. As the Court noted in DeShaney, in the custodial
context, an affirmative duty to protect does not arise from
the state’s knowledge of the individual’s predicament,
but from the state’s deprivation of an individual’s liberty.
Id. Similarly, outside of the custodial context, the
analysis of whether a duty to protect exists focuses on
the government’s action that exposes an individual to a
danger. See Hernandez, 897 F.3d at 1135.
i.

The Third and Sixth Circuits

At least two circuits, the Third and Sixth Circuits,
require actual knowledge. Mann v. Palmerton Area Sch.
Dist., 872 F.3d 165, 171 (3d Cir. 2017), as amended (Sept.
22, 2017) (requiring a plaintiff to allege an awareness that
rises to level of actual knowledge) (citing Phillips v. Cty.
of Allegheny, 515 F.3d 224, 235 (3d Cir. 2008)); Estate of
Romain v. City of Grosse Pointe Farms, 935 F.3d 485, 492
(6th Cir. 2019) (requiring plaintiff to demonstrate that
“the state knew or should have known that its actions
specifically endangered the plaintiff”).
ii.

The Eighth, Ninth, and Tenth Circuits

The Eighth, Ninth, and Tenth Circuits add a twist,
permitting potential liability if the government actor
had actual knowledge or if the danger was obvious.
Montgomery v. City of Ames, 829 F.3d 968, 972 (8th
Cir. 2016) (requiring that the risk was obvious or known
to the defendant); Kennedy v. City of Ridgefield, 439
F.3d 1055, 1062 (9th Cir. 2006) (stating that a plaintiff

18
must demonstrate the danger was “known or obvious”);
Matthews v. Bergdorf, 889 F.3d 1136, 1150 (10th Cir. 2018)
(requiring a plaintiff to demonstrate the risk was obvious
or known).
iii. The Seventh Circuit
In contrast, the Seventh Circuit does not require
that a danger is known by a government actor. Weiland
v. Loomis, 938 F.3d 917 (7th Cir. 2019) (listing elements
of three-part test which does not contain a knowledge
requirement); Reed, 986 F.2d at 1127 (“When the police
create a specific danger, they need not know who in
particular will be hurt.”). In rejecting the requirement
that a government actor have knowledge of a danger, the
Seventh Circuit stated: “[s]ome dangers are so evident,
while their victims are so random, that state actors can be
held accountable by any injured party.” Reed, 986 F.2d
at 1127 (emphasis added).
Relevant to this case, while the knowledge requirement
is not always relevant, the Seventh Circuit, and many other
circuits, would support finding liability when a danger is
obvious. This stands in contrast to the issue here, where
the Fourth Circuit deemed an absolute obvious risk of
harm “suspicious circumstances.” See DeShaney, 489
U.S. at 203.
iv.

The Fourth, Eleventh, and D.C. Circuits

Notably, three circuits, the Fourth, Eleventh, and
D.C. Circuits, have not taken a position on this issue.
Appx. 1a-11a (applying state-created danger doctrine, not
discussing knowledge requirement); Waddell v. Hendry

19
Cnty. Sheriff’s Office, 329 F.3d 1300, 1305 (11th Cir.
2003) (stating that the state-created danger exception is
judged by a shock the conscience standard and making no
mention of knowledge); McKenzie v. Talladega City Bd. of
Educ., 242 F. Supp. 3d 1244, 1256 (N.D. Ala. 2017), appeal
dismissed, No. 17-11514-FF, 2017 WL 4570458 (11th Cir.
Aug. 8, 2017) (discussing non-custodial due process claims
in the Eleventh Circuit under the shock the conscience
standard); Butera, 235 F.3d at 651 (stating test for statecreated danger doctrine, not mentioning foreseeability).
d.

Mu s t g o ve r n me nt c o n d uc t s ho c k t he
consciousness or is merely causing harm
sufficient to constitute a state-created danger?
No guidance from DeShaney

There is a circuit split as to the mental culpability
required to support a claim under the state-created
danger doctrine.
i.

The Second, Third, Eighth, and Ninth
Circuits

The Second, Third, Eighth, and Ninth Circuits have
held that a deliberate indifference standard may be
sufficient to support a state-created danger doctrine. See
e.g., Gladden v. Richbourg, 759 F.3d 960 (8th Cir. 2014)
(finding deliberate indifference standard sufficient under
a state-created danger theory); Johnson, 474 F.3d at 640
(stating that, in the Ninth Circuit, an officer’s conduct
creates a constitutional claim when a state officer’s conduct
places a person in peril in deliberate indifference to their
safety). These courts have noted that where officers have
time for reflection, a deliberate indifferent standard

20
should apply. See Okin, 577 F.3d at 432 (finding that where
officers have time for reflection, the requisite state of mind
is deliberate indifference); Estate of Smith v. Marasco,
430 F.3d 140 (3d Cir. 2005) (stating that where the officer
has time for deliberation, deliberate indifference may be
sufficient); Phillips, 515 F.3d at 241 (same).
ii.

The Fourth, Seventh, Tenth, Eleventh, and
D.C. Circuits

At least five circuits, including the lower court at
issue here, however, have required that a plaintiff meet
the shock-the-conscience standard to support a statecreated danger claim. Appx. 1a-11a (rejecting “a deliberate
indifference standard merely because the State created a
danger that resulted in harm”); Jackson v. Indian Prairie
Sch. Dist. 204, 653 F.3d 647, 655 (7th Cir. 2011) (requiring
a constitutional violation shock the conscience); Armijo v.
Wagon Mound Pub. Sch., 159 F.3d 1253, 1262–63 (10th Cir.
1998) (holding as a requisite element that the conduct is
“conscience shocking”); Waddell, 329 F.3d at 1305 (finding
the state-created danger exception in the Eleventh Circuit
is judged by a shock the conscience standard); Butera,
235 F.3d at 651 (holding that plaintiff must also show the
government’s conduct shocked the conscience).
e.

Must the test require all avenues of escape to
be exhausted before a government actor may be
potentially liable? No guidance from DeShaney

Another factor the courts disagree on is whether
all avenues of escape must be closed off to an individual
before a government actor can be held responsible for an
affirmative action that produces an injury.

21
i.

The Seventh Circuit

An intra-circuit split exists within the Seventh Circuit
on this issue. Compare Monfils v. Taylor, 165 F.3d 511, 517
(7th Cir. 1998) (“[A] State can be held to have violated due
process by placing a person in a position of heightened
danger without cutting off other avenues of aid.”) with
Estate of Stevens v. City of Green Bay, 105 F.3d 1169, 1177
(7th Cir. 1997) (requiring alternative avenues of aid to be
cut off before imposing liability under the state-created
danger theory).
ii.

The Ninth Circuit

An intra-circuit split also exists within the Ninth
Circuit. In Munger v. City of Glasgow Police Dep’t,
227 F.3d 1082, 1086 (9th Cir. 2000), the Ninth Circuit
suggested it did not require all avenues of escape to be
closed off to an individual. Id. (noting the court does not
look solely to the agency of an individual, nor rest its
opinion on what options may have been available to the
individual). However, in Johnson the court did not find a
constitutional violation occurred in a police crowd control
context. 474 F.3d at 640. In reaching its conclusion, the
court noted that the government actors did not confine the
plaintiffs to a place where they were unable to leave. Id.
III. The Fourth Circuit’s holding is inconsistent with
prior decisions of this Court because it conflicts
with the intent of § 1983
The application of the state-created danger theory
within the context of police misconduct deserves special
attention. It is of controlling importance whether a

22
court deems a police supervisor’s conduct of directing
subordinate officers to attend an anticipated racist rally
while also issuing a verbal order to stand-down in the
face of race-based felony assaults an affirmative act. To
decide otherwise conflicts with the legislative history of
42 U.S.C. § 1983. Consequently, before discussing the
Fourth Circuit turning this Court’s precedent regarding
qualified-immunity on its head by defining the right at
issue at a high level of generality, and before discussing the
fact that the Fourth Circuit conspicuously ignored its own
precedent to sanction lawless conduct by Respondents,
Mr. Turner steps back to harrowing times past regarding
race relations.
Congress passed § 1983 of the Civil Rights Act of 1871
as the primary remedy for the violation of Constitutional
rights by a state and local actor, out of concern for the nonadministration of law by state and local officials in the face
of Ku Klux Klan terrorism in the post-Civil War South. See
Monell v. Dep’t of Soc. Servs. of City of New York, 436 U.S.
658, 667 (1978) (stating that the purpose of the Sherman
amendment was to suppress Ku Klux Klan terrorism);
Monroe v. Pape, 365 U.S. 167, 175–76 (1961). The Court in
Monroe emphasized that “while one main scourge of the
evil—perhaps the leading one—was the Ku Klux Klan,
the remedy created [in § 1983] was not a remedy against
it or its members but against those who representing a
State in some capacity were unable or unwilling to enforce
a state law.” 365 U.S at 175–76. Similarly, the Supreme
Court has recognized the Civil Rights Act of 1871 was
more than a simple remedy; instead, it was a sweeping
provision intended to redress state “misuse of power.”
Id. at 172. Finally, it is uncontested that the Due Process
Clause was intended to protect the individual’s “right to

23
be free from and to obtain judicial relief, for unjustified
intrusions on personal security.” Ingraham v. Wright,
430 U.S. 651, 673 (1977); see Archie v. City of Racine, 847
F.2d 1211, 1221 (7th Cir. 1988) (commenting that “[t]he
Supreme Court sometimes uses the negative rights of the
Constitution as the foundation for positive ones”). With the
above in mind, the Fourth Circuit’s Published Opinion in
this case frees local law enforcement to literally condone
known racial violence with impunity.
IV. The Fourth Circuit violated this Court’s precedent
by defining the right at issue at a high level of
generality, while also refusing to apply its own
controlling precedent
The Fourth Circuit violated this Court’s precedent
when it granted qualified immunity by using a highly
level of generality to define the right at issue instead of
focusing on the appropriate level of specificity as guided by
recorded facts. Making matters worse, the Fourth Circuit
then refused to apply the very contours it established for
the purposes of deciding qualified immunity with respect
to the state-created danger doctrine.
a.

Legal standard

Prior to even beginning an analysis of whether or not
an officer’s conduct was proscribed by clearly established
law, it is worth mentioning that by law, all courts in this
country must define the right allegedly violated at the
‘appropriate level of specificity.’ Wilson v. Layne, 119
S. Ct. 1692, 1699 (1999) (stating, “[a]s we explained in
Anderson, the right allegedly violated must be defined
at the appropriate level of specificity before a court can

24
determine if it was clearly established.”) (emphasis added.)
After that’s occurred, then—and only then—can a court
properly determine whether clearly established statutory
or constitutional law was ‘pre-existing, ‘obvious,’ and
‘mandatory’ enough to place an officer on notice about
the apparent unlawfulness of his or her conduct. See e.g.,
Hope v. Pelzer, 536 U.S. 730, 739 (2002); United States v.
Lanier, 117 S. Ct. 1219, 1227 (1997); see also Graham v.
Connor, 490 U.S. 386, 394 (1989); Tolan v. Cotton, 134 S.
Ct. 1861, 1866 (2014); Mullenix v. Luna, 136 S. Ct. 305, 308
(2015); Saucier v. Katz, 121 S.Ct. 2151 (2001).
That established, demonstrating that pre-existing
law clearly placed an officer on notice about the apparent
unlawfulness of his or her conduct can be accomplished
in a couple of ways. Officers have fair warning of their
apparent unlawful conduct when the conf luency of
controlling case law and relevant training, polices, and/or
regulations have sufficiently clarified a particular right in
a manner that provided fair notice to an officer about the
apparent unlawfulness of his or her conduct, irrespective
of factual distinctions. Anderson v. Creighton, 483 U.S.
635, 640 (1987); Hope, 536 U.S. at 741-46; Lanier, 117 S.
Ct. at 1227; see also City & Cty. of San Francisco, Calif.
v. Sheehan, 135 S. Ct. 1765, 1776 (2015) (reasoning that an
officer’s training was too general to place him on notice
about the apparent unlawfulness of his conduct.)
Qualified immunity should also be denied if a court
identifies a general constitutional rule already identified
within precedential law that applies with obvious clarity
to the specific conduct in question. Lanier, 117 S. Ct. at
1227. Under this rule, the apparent unlawfulness of the
officer’s conduct should be obviously clear in connection

25
with controlling decisional law and thus resorting to the
use of regulations, reports, policies, or training is simply
not necessary.
b.

This Court should reject the Fourth Circuit’s
opinion, as it fails to apply the contours the
Fourth Circuit, itself, established for deciding
qualified immunity with respect to the statecreated danger doctrine

In this case, instead of discussing Mr. Thomas’s
considered-true facts in relation to its own Circuitbinding, precedential principles of law, the Fourth Circuit
made a sweeping generalization that misstates both the
record that was before it and Mr. Turner’s argument. The
Fourth Circuit stated in whole that:
“Turner has put forth no facts suggesting
that a stand-down order crosses the line from
inaction to action when the state conduct in
Pinder and Doe did not. Acting under Pinder’s
teaching that state actors may not be held liable
for “st[anding] by and d[oing] nothing when
suspicious circumstances dictated a more active
role for them,” Thomas and Flaherty could
have reasonably concluded that a stand-down
order violated no constitutional right.” (Appx.
10a-11a.)
First, standing alone, the act of verbally ordering
officers to stand down and take no action is an affirmative
act. The Fourth Circuit skirted that issue, entirely,
by coupling this obvious affirmative act with its own
precedent, reasoning that when viewed in that context,

26
ordering hundreds of law enforcement officers to not
act was not enough to ‘cross[] the line’ from inaction to
action: “Turner has put forth no facts suggesting that a
stand-down order crosses the line from inaction to action
when the state conduct in Pinder and Doe did not.” Id. But
using its own en banc precedent, Pinder, to define what
constitutes an affirmative act for purposes of qualified
immunity was erroneous, because Pinder itself showed
that Mr. Turner’s considered-true facts gave fair warning
to Respondents Thomas and Flaherty for purposes of
denying qualified immunity.
Nowhere in its Published Opinion does the Fourth
Circuit meaningfully acknowledge or discuss the fact that,
prior to Mr. Turner’s case, in Pinder, the Fourth Circuit
itself “granted en banc review… to define the contours of
qualified immunity under 42 U.S.C. § 1983 when a plaintiff
alleges an affirmative duty on the part of a police officer to
protect citizens from the actions of a third party.” In doing
so, the Fourth established specific principles of law under
which a claim under the state-created-danger is valid:
1.

“state actors may not disclaim liability when they
themselves throw others to the lions”;

2.

“the Due Process Clause works only as a negative
prohibition on state action. Its purpose was to
protect the people from the State, not to ensure
that the State protected them from each other”;
and

3.

“[w]hen the state itself creates the dangerous
situation that resulted in a victim’s injury, the
absence of a custodial relationship may not be
dispositive. In such instances, the state is not

27
merely accused of a failure to act; it becomes
much more akin to an actor itself directly causing
harm to the injured party.”
See Pinder, 54 F.3d at 1171.
That established, it is under those guiding principles—
contours—established by Pinder that ‘facts suggesting
that a stand-down order crosses the line from inaction to
action…’ must be read. Hope, 536 U.S. at 739. So read,
Mr. Turner easily pled considered-true facts “plausibly
suggesting,” at this litigation stage, that Respondents,
themselves, threw Mr. Turner “to the lions,” thereby
causing harm to Mr. Turner. Bell Atl. Corp. v. Twombly,
550 U.S. 544, 557 (2007) (stating, “the need at the pleading
stage for allegations plausibly suggesting….”) These facts
include:
1.

The Department of Homeland Security warning
Respondents based on gathered intelligence that
this rally would be very violent. (JA, p. 31.);

2.

Respondents’ subordinate officers showed up
with no riot gear, despite being warned of danger
and earlier plans to arrive so dressed, a fact that
creates the reasonable inference that Respondents
ordered their subordinates not to show up with
riot gear despite applicable law enforcements
standard and DHS’ recommendations to the
contrary. (JA, p. 30-31);

3.

The visible police presence at the scene informed
demonstrators that “[w]e’ll not intervene unless
given a command to do so.” Id. at p. 26;

28
4.

Officers under Respondents’ command observed
violent incidents and did not intervene. Id. ¶ 59,
66; and

5.

When asked if police were going to respond to
violent attacks, at least one officer stated “that’s
not my job. Id. ¶ 69.

These facts easily establish a plausible suggestion
that the lions in this case were the racist protestors, and
Thomas and Flaherty threw Mr. Turner to those lions
by (1) directing officers to be present at the subject Park
where the known violent racist rally would take place and
by also (2) ordering those same officers to stand down, and
simply watch as felonious assaults occurred until a state
of emergency was declared. Then Respondents ordered
those very same officers to go put on riot gear in order
to stop the violence and move this racist rally down the
street.
c.

This Court should reject the Fourth Circuit’s
sweeping generalizations, including its
characterization of felonious assaults as
‘suspicious circumstances.’

These same facts also demonstrate the error in the
Fourth Circuit’s statement, “st[anding] by and d[oing]
nothing when suspicious circumstances dictated a more
active role for them, Thomas and Flaherty could have
reasonably concluded that a stand-down order violated
no constitutional right.” Turner, 930 F.3d at 646. That
phrase fails to define the right at issue in this case with the
appropriate level of specificity considering the consideredtrue facts of this case. For example, the Fourth Circuit

29
flat-out ignored the above-five enumerated facts. Once
those facts are applied, the right at issue, defined at the
appropriate level of specificity, is the following:
Did government actors create a danger that
caused Mr. Thomas physical and emotional
harm by knowing and anticipating a violent
protest was to take place in a specified park
and then (1) ordering their subordinate officers
to appear at the park while (2) ordering those
same officers to permit felonious assaults in
accordance with a stand down order until a
state of emergency was declared and the racist
rally could be moved lawfully down the street
to Respondents’ preferred location?
At that level of specificity, and in accordance with
contours of the state-created danger doctrine as
delineated by precedential Pinder, Mr. Turner’s facts
plausibly suggest a violation of Mr. Turner’s Constitutional
right under the Due Process Clause of the Fourteenth
Amendment.
Moreover, and in a jaw-dropping fashion that floored
Mr. Turner’s counsel, the Fourth Circuit described
irrefutable facts regarding video-recorded, felonious
assaults as mere “suspicious circumstances” that did
not require a more active role by Respondents and those
officers under their command. If the Fourth Circuit was
willing to label anticipated and actual felonious assaults
“suspicious circumstances” regarding a racist event where
people were maimed, degraded, and murdered, then there
is no telling how the Fourth Circuit will use it Published
Opinion in the future.

30
If the Fourth Circuit had been true to its on precedent,
which laid out the contours of the state-created danger
doctrine quite well, Respondents should have never been
afforded qualified immunity. Mr. Turner asks that this
Court vacate the Fourth Circuit’s order and establish
a form of consistency across the circuits regarding the
application of this currently amorphous doctrine.
CONCLUSION
The Fourth Circuit’s Published Opinion is fraught
with unlawful analysis that could haunt this Court’s
precedent for years to come, if left unchecked. The case
is about more than Mr. Turner; it is about the law and its
proper application. Please vacate this harmful Published
Opinion.
Respectfully submitted,
John M. Shoreman
Mario B. Williams
McFadden & Shoreman
Counsel of Record
1050 Connecticut Avenue, NW, NDH Lawyers
Suite 500
44 Broad Street, NW, Suite 200
Washington, DC 20036
Atlanta, Georgia 30303
(202) 772-3188
(404) 254-0442
mwilliams@ndh-law.com
Julie Oinonen
Williams Oinonen LLC
44 Broad Street, NW, Suite 200
Atlanta, Georgia 30303
(404) 654-0288
Counsel for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE FOURTH
CIRCUIT, FILED JULY 19, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1733
ROBERT SANCHEZ TURNER,
Plaintiff-Appellant,
v.
AL THOMAS, JR., IN HIS INDIVIDUAL CAPACITY
AND HIS OFFICIAL CAPACITY AS CHIEF OF
CHARLOTTESVILLE POLICE DEPARTMENT;
CITY OF CHARLOTTESVILLE, VIRGINIA;
W. STEVEN FLAHERTY, IN HIS INDIVIDUAL
CAPACITY,
Defendants-Appellees.
March 21, 2019, Argued;
July 19, 2019, Decided
Appeal from the United States District Court for the
Western District of Virginia, at Charlottesville. (3:17-cv00064-NKM-JCH). Norman K. Moon, Senior, District
Judge.
Before FLOYD, HARRIS, and RICHARDSON,
Circuit Judges.

2a
Appendix A
Affirmed by published opinion. Judge Floyd wrote
the opinion in which Judge Harris and Judge Richardson
joined.
FLOYD, Circuit Judge:
Appellant Robert Sanchez Turner was attacked by
protesters at the “Unite the Right” rally on August 12,
2017 in Charlottesville, Virginia. Turner claims that,
pursuant to a stand-down order under which police
officers at the rally were instructed not to intervene in
violence among protesters, officers watched his attack
and did nothing to help. Turner brought suit against Al
Thomas Jr., former Chief of the Charlottesville Police
Department; W. Stephen Flaherty, Virginia State Police
Superintendent; and the City of Charlottesville. The
district court concluded that Thomas and Flaherty were
entitled to qualified immunity and dismissed Turner’s
complaint for failure to state a claim. We agree with the
district court that the facts alleged in Turner’s complaint
do not amount to a violation of clearly established law.
Accordingly, we affirm.
I.
Because Turner’s claim was dismissed on the
pleadings, we take as true all well-pleaded allegations in the
complaint. See Nemet Chevrolet, Ltd. v. Consumeraffairs.
com, Inc., 591 F.3d 250, 253 (4th Cir. 2009). On August
12, 2017, the “Unite the Right” rally was held in
Charlottesville’s Emancipation Park to protest the City’s
decision to change the Park’s name from “Lee Park” and

3a
Appendix A
remove a Confederate monument from its grounds. Jason
Kessler, leader of the far-right advocacy group “Unity &
Security for America,” led efforts to organize the rally.
The City granted Kessler a permit to hold the
rally and informed him that heavy police presence and
security would be provided. But less than a week before
the event, citing traffic and safety concerns, the City
revoked the permit. Kessler challenged the revocation in
the Western District of Virginia on First and Fourteenth
Amendment grounds, and the district court reinstated
the permit. According to Turner, Thomas and Flaherty
were “enraged” by the decision to reinstate the permit.
J.A. 24. In response, they enacted a stand-down order
under which officers on duty at the rally would “refrain
from intervening in any violent confrontations between
white supremacists and counter-protesters unless given
a direct command to do so.” J.A. 25. Turner alleges that
officers told protesters at the rally about the stand-down
order. For example, when demonstrators asked if police
planned to respond to violent attacks, at least one officer
responded by saying “that’s not my job.” J.A. 26.
Turner attended the rally as a counter-protester.
He alleges that while he demonstrated peacefully on
the sidewalk adjacent to the Park, “KKK members/
sympathizers” exited the Park and began to engage with
counter-protesters. J.A. 27-28. According to Turner, the
“KKK members/sympathizers” attacked him for more
than thirty seconds, spraying his eyes with mace, beating
him with a stick, and throwing bottles of urine at him, all
while police looked on and did nothing. J.A. 26. Turner
alleges that despite a warning from the Department of

4a
Appendix A
Homeland Security that the rally could turn violent, police
did not wear riot gear to patrol the rally. Approximately
five hours after the rally began, officers changed into riot
gear and began to clear the Park, though at that point
Turner had already been attacked.
Turner brought suit under 42 U.S.C. § 1983. In
relevant part, Turner sought to hold Thomas and Flaherty
directly liable for violation of his substantive due process
rights based on the police department’s failure to protect
him from violent protesters at the rally.1
II.
We review de novo a dismissal under Federal Rule
of Civil Procedure 12(b)(6), accepting all well-pleaded
1. Additionally, Turner’s complaint sought to hold Thomas
and Flaherty liable under a theory of supervisory liability and the
City of Charlottesville liable under Monell v. Department of Social
Services of the City of New York, 436 U.S. 658, 98 S. Ct. 2018, 56
L. Ed. 2d 611 (1978). We need not address the supervisory-liability
claim separately, because Turner has not argued that the qualifiedimmunity analysis should proceed any differently for that claim.
We also find that Turner has waived his claim against the City of
Charlottesville. At a hearing before the district court, Turner said
he had “dropped” this claim. J.A. 178. Then, in his opening brief on
appeal, Turner appeared to focus entirely on the qualified-immunity
issue, which does not apply to the City. In response, the City argued
that this claim had been waived; Turner declined to address the
waiver argument in his reply, which did not even mention his claim
against City. It was not until oral argument that Turner sought to
preserve this claim. We conclude that Turner’s inattention to this
claim on appeal, combined with his express statement to the district
court, effectively waived it. Therefore, we do not address it.

5a
Appendix A
facts as true and drawing all reasonable inferences in
favor of the plaintiff. See Nemet Chevrolet, 591 F.3d at
253. However, we “need not accept legal conclusions
couched as facts or unwarranted inferences, unreasonable
conclusions, or arguments.” Wag More Dogs, LLC v.
Cozart, 680 F.3d 359, 365 (4th Cir. 2012) (internal quotation
marks omitted). The complaint must provide “sufficient
factual matter, accepted as true, to state a claim to relief
that is plausible on its face.” Ashcroft v. Iqbal, 556 U.S.
662, 678, 129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009) (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570, 127 S. Ct.
1955, 167 L. Ed. 2d 929 (2007)).
III.
Before us is Turner’s claim that Thomas and Flaherty
violated his substantive due process rights by ordering
officers at the rally not to intervene in violence among
protesters. In general, a defendant’s mere failure to act
does not give rise to liability for a due process violation.
See DeShaney v. Winnebago County Department of Social
Services, 489 U.S. 189, 196, 109 S. Ct. 998, 103 L. Ed. 2d
249 (1989). Turner seeks to avoid that rule by invoking the
state-created danger exception, under which state actors
may be liable for failing to protect injured parties from
dangers which the state actors either created or enhanced.
See Pinder v. Johnson, 54 F.3d 1169, 1176 (4th Cir. 1995).
But it was not clearly established at the time of the rally
that failing to intervene in violence among the protesters
would violate any particular protester’s due process
rights. Accordingly, we agree with the district court that
Thomas and Flaherty are entitled to qualified immunity,
and we affirm the dismissal of Turner’s complaint.

6a
Appendix A
Qualified immunity shields state actors from liability
under § 1983 liability when their “conduct does not violate
clearly established statutory or constitutional rights of
which a reasonable person would have known.” Wiley v.
Doory, 14 F.3d 993, 995 (4th Cir. 1994) (quoting Harlow v.
Fitzgerald, 457 US. 800, 818, 102 S. Ct. 2727, 73 L. Ed. 2d
396 (1982)). To determine whether a defendant is entitled
to qualified immunity, we ask two questions: (1) Has the
plaintiff alleged a violation of a federal right? (2) Was the
right at issue clearly established at the time of the alleged
violation? Pearson v. Callahan, 555 U.S. 223, 236, 129 S.
Ct. 808, 172 L. Ed. 2d 565 (2009). We may decide, on a
case-by-case basis, which question to answer first. Id. If
the answer to either question is “no,” then the defendant
is entitled to qualified immunity.
In this case, we begin by asking whether the right
asserted by Turner was clearly established at the time
of its alleged violation. To determine whether a right
was clearly established, we typically ask whether, when
the defendant violated the right, there existed either
controlling authority—such as a published opinion of this
Court—or a “robust consensus of persuasive authority,”
Booker v. S.C. Dept of Corr., 855 F.3d 533, 544 (4th Cir.
2017) (internal quotation marks omitted), that would have
given the defendants “fair warning that their conduct was
wrongful.” Williamson v. Stirling, 912 F.3d 154, 187 (4th
Cir. 2018) (internal quotation marks omitted). Thus, we
must determine whether, at the time of the rally, there
existed legal authority giving Thomas and Flaherty fair
warning that ordering officers not to intervene in violence
among protesters would implicate the state-created

7a
Appendix A
danger doctrine and amount to a violation of protesters’
due process rights.
As our starting point, we turn to DeShaney v.
Winnebago County, 489 U.S. at 196. There, the Supreme
Court stated that because the Fourteenth Amendment
was intended to protect “the people from the State, not
to ensure that the State protected them from each other
. . . [a]s a general matter . . . a State’s failure to protect
an individual against private violence simply does not
constitute a violation of the Due Process Clause.” Id.
at 196-97. Given that “the Due Process Clause does not
require the State to provide its citizens with particular
protective services,” wrote the Court, “it follows that the
State cannot be held liable for injuries that could have
been averted had it chosen to provide them.” Id. at 196-97.
There are two exceptions to the rule laid out in
DeShaney. The first arises when the individual and the
state have a “special relationship,” such as a custodial
relationship, that gives rise to an affirmative duty to
protect. See id. at 199-200 (“It is the State’s affirmative act
of restraining the individual’s freedom to act on his own
behalf . . . which is the ‘deprivation of liberty’ triggering
the protections of the Due Process Clause, not its failure to
act to protect his liberty interests against harms inflicted
by other means.”). Turner does not claim that the “special
relationship” exception applies in this case.
The second, which DeShaney implicitly recognized
and which Turner relies upon here, is known as the
state-created danger doctrine. See id. at 201 (“While the

8a
Appendix A
State may have been aware of the dangers that [the child]
faced . . . it played no part in their creation, nor did it do
anything to render him any more vulnerable to them.”).
Under this doctrine, a state actor may be held liable for
harm resulting from “affirmative actions” that created
or enhanced the dangerous conditions that produced
the plaintiff’s injury. See Pinder, 54 F.3d at 1176. “[T]o
establish § 1983 liability based on a state-created danger
theory, a plaintiff must show that the state actor created
or increased the risk of private danger, and did so directly
through affirmative acts, not merely through inaction or
omissions.” Doe v. Rosa, 795 F.3d 429, 439 (4th Cir. 2015).
“Put another way, ‘state actors may not disclaim liability
when they themselves throw others to the lions,’ but that
does not ‘entitle persons who rely on promises of aid to
some greater degree of protection from lions at large.’”
Id. (quoting Pinder, 54 F.3d at 1177).
As we recognized in Pinder, the state-created
danger doctrine is narrowly drawn, and the bar for what
constitutes an “affirmative act” is high. 54 F.3d at 1175.
In that case, plaintiff Pinder called the police on her
former boyfriend, Pittman, who had broken into her home,
assaulted her, and threatened to kill her and her three
children. Id. at 1172. After Pittman was arrested, Pinder
asked the investigating officer if it would be safe for her
to return to work that evening and leave her children at
home. Id. The officer assured her that Pittman would be
detained overnight on assault charges and could not be
released until the county commissioner became available
for a hearing the following morning. Id. However, instead
of the assault charge, the officer filed lesser charges

9a
Appendix A
against Pittman, and he was released from custody that
night. Id. Pittman then returned to Pinder’s home after
she left for work and set fire to it, killing her three children
who were sleeping inside. Id.
Pinder brought a due process claim against the officer
who had assured her that Pittman would be detained
overnight, seeking to invoke the state-created danger
doctrine. Id. at 1175. We rejected this application of the
doctrine, however, holding that the officer did not create
the danger that resulted in the children’s death, but
“simply failed to provide adequate protection from it.”
Id. “It cannot be,” we noted, “that the state ‘commits an
affirmative act’ or ‘creates a danger’ every time it does
anything that makes injury at the hands of a third party
more likely.” Id. (internal quotation marks omitted). We
acknowledged that “[a]t some point on the spectrum
between action and inaction, the state’s conduct may
implicate it in the harm caused,” but we concluded that “no
such point [was] reached” in Pinder’s case. Id.; see also id.
at 1176 n.* (observing that although “inaction can often be
artfully recharacterized as ‘action,’ courts should resist
the temptation to inject this alternate framework into
omission cases by stretching the concept of ‘affirmative
acts’ beyond the context of immediate interactions
between the officer and the [victim]”).
Following Pinder’s narrow reading of the statecreated danger doctrine, we have never issued a published
opinion recognizing a successful state-created danger
claim. Rather, our precedent on the issue has emphasized
the doctrine’s limited reach and the exactingness of the

10a
Appendix A
affirmative-conduct standard. For instance, in Doe v.
Rosa, we held that the state-created danger doctrine
did not apply when a college president, Rosa, failed to
intervene after learning that a counselor at the college’s
summer camp sexually abused campers for several years.
795 F.3d at 431. One of the counselor’s victims and the
victim’s family (the “Does”) brought suit, claiming that
Rosa not only failed to report the abuse, but also actively
took steps to conceal it. Id. For example, the Does alleged
that Rosa omitted abuse allegations from relevant records
and purposefully obfuscated the nature of the Does’
complaint to college officials. Id. at 434-35. We held that
the Does’ claims did not describe the “affirmative actions”
necessary to implicate the state-created danger doctrine.
Id. at 441 (“No amount of semantics can disguise the fact
that the real ‘affirmative act’ here was committed by [the
counselor] not by Rosa.”). We noted that the Does’ claims
“lack[ed] the nexus necessary for any of Rosa’s alleged
conduct to be ‘affirmative acts’“ that created or enhanced
the danger to the Does, specifically, because Rosa “did not
meet or speak with the Does, and by all accounts, was not
even aware [they] existed.” Id.
Against this background, we conclude that it was not
clearly established at the time of the rally that ordering
officers not to intervene in private violence between
protesters was an affirmative act within the meaning of
the state-created danger doctrine. Our precedent sets
an exactingly high bar for what constitutes affirmative
conduct sufficient to invoke the state-created danger
doctrine. Turner has put forth no facts suggesting that
a stand-down order crosses the line from inaction to

11a
Appendix A
action when the state conduct in Pinder and Doe did
not. Acting under Pinder’s teaching that state actors
may not be held liable for “st[anding] by and d[oing]
nothing when suspicious circumstances dictated a more
active role for them,” Thomas and Flaherty could have
reasonably concluded that a stand-down order violated no
constitutional right. 54 F.3d at 1175. Accordingly, Turner
has not alleged a violation of clearly established law, and
Thomas and Flaherty are entitled to qualified immunity. 2
IV.
For the foregoing reasons, the judgment of the district
court is
			AFFIRMED.

2. Turner argues that in assessing the merits of his substantive
due process claim, we should ask whether Thomas and Flaherty
acted with deliberate indifference to Turner’s safety. But as we
have stated, “apart from situations involving custody, the Supreme
Court has never applied a ‘deliberate indifference’ standard merely
because the State created a danger that resulted in harm.” Slaughter
v. Mayor & City Council of Baltimore, 682 F.3d 317, 321 (4th Cir.
2013); see also Waybright, 528 F.3d 199, 205 (4th Cir. 2008) (“For
a due process challenge to executive action to succeed, the general
rule is that the action must have been ‘intended to injure in some
way unjustifiable by the government interest.’”). Because there was
no clearly established law imposing liability based on deliberate
indifference in this context, qualified immunity shields Thomas and
Flaherty from such liability.

12a
B
APPENDIX B — Appendix
MEMORANDUM
OPINION
OF THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA,
CHARLOTTESVILLE DIVISION,
FILED MAY 29, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
CHARLOTTESVILLE DIVISION
CASE NO. 3:17-CV-00064
ROBERT SANCHEZ TURNER,
Plaintiff,
v.
AL THOMAS, JR., et al.,
Defendants.
May 29, 2018, Decided;
May 29, 2018, Filed
MEMORANDUM OPINION
JUDGE NORMAN K. MOON
This case is before the Court on Defendants’ motions
to dismiss pursuant to Federal Rules of Civil Procedure
12(b)(1) and 12(b)(6). Plaintiff Robert Sanchez Turner
(“Turner”) alleges several claims for damages sustained
at the August 12, 2017 “Unite the Right” rally. These
claims are asserted against Defendants Al Thomas

13a
Appendix B
Jr. (“Thomas”), former Chief of the Charlottesville
Police Department; W. Stephen Flaherty (“Flaherty”),
Virginia State Police Superintendent; and the City of
Charlottesville (“Charlottesville”). Plaintiff’s claims
share a common question: whether there is constitutional
duty under the Fourteenth Amendment for the police
to intervene to protect a citizen from criminal conduct
by third parties. Because I find this duty is not “clearly
established,” his claims are barred by qualified immunity.
Therefore, although Defendant Flaherty’s jurisdictional
argument under Rule 12(b)(1) fails, Defendants’ motions
to dismiss pursuant to Rule 12(b)(6) will be granted.
I. Standard of Review
Defendants bring motions pursuant to Federal Rule
of Civil Procedure 12(b)(1) and 12(b)(6). A motion to
dismiss under Rule 12(b)(1) challenges the Court’s subject
matter jurisdiction. The burden of proving subject matter
jurisdiction rests upon the plaintiff. Adams v. Bain, 697
F.2d 1213, 1219 (4th Cir. 1982). Thus, a court must dismiss
a complaint which fails to allege facts that demonstrate
subject matter jurisdiction.1 Id.
1. Motions to dismiss for lack of subject matter jurisdiction
can be brought one of two ways: “First, it may be contended that
a complaint simply fails to allege facts upon which subject matter
jurisdiction can be based.” Adams, 697 F.2d at 1219. “Second, it may
be contended that the jurisdictional allegations of the complaint were
not true.” Id. Implicated here is only the first (i.e., facial) challenge
to subject matter jurisdiction. As such, “all the facts alleged in
the complaint are assumed to be true and the plaintiff, in effect, is
afforded the same procedural protection as he would receive under
a Rule 12(b)(6) consideration.” Id.

14a
Appendix B
“In ruling on a 12(b)(6) motion, a court must accept
as true all of the factual allegations contained in the
complaint and draw all reasonable inferences in favor of
the plaintiff.” Kensington Volunteer Fire Dep’t, Inc. v.
Montgomery Cty., Md., 684 F.3d 462, 467 (4th Cir. 2012);
see also Erickson v. Pardus, 551 U.S. 89, 94, 127 S. Ct. 2197,
167 L. Ed. 2d 1081 (2007). “While a complaint attacked by
a Rule 12(b)(6) motion to dismiss does not need detailed
factual allegations, a plaintiff’s obligation to provide the
grounds of his entitlement to relief requires more than
labels and conclusions, and a formulaic recitation of the
elements of a cause of action will not do.” Bell Atl. Corp.
v. Twombly, 550 U.S. 544, 555, 127 S. Ct. 1955, 167 L.
Ed. 2d 929 (2007) (internal citations and quotation marks
omitted). Stated differently, in order to survive a motion
to dismiss, “a complaint must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief that
is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662,
678, 129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009) (quoting
Twombly, 550 U.S. at 570).
II. Facts as Alleged
In Charlottesville, Virginia, a statue of Confederate
General Robert E. Lee stands in what was formerly called
“Lee Park.” (Compl. ¶¶ 6-8). In June 2017, Defendant
Charlottesville changed the park’s name to “Emancipation
Park,” (“the Park”) and subsequently planned to sell
the statue and have it removed. (Id. ¶ 7-8). In response,
Jason Kessler, leader of the group “Unity & Security
for America,” organized the “Unite the Right” rally to
protest the Park’s name change and the decision to sell
the statute. (Id. ¶ 10-11).

15a
Appendix B
Kessler applied for, and was granted, a permit to hold
a “free speech rally in support of the Lee monument” by
the City. (Id. ¶ 12). Less than a week before the event,
the City revoked Kessler’s permit, citing traffic and
safety concerns. (Id. ¶¶ 15-16, 21, 29). Allegedly, Kessler
was initially promised that security measures would
nevertheless remain in place for the revoked event.
However, he was later informed that Defendant Thomas, as
Chief of Police, allegedly “changed his mind” and would not
provide any of the initially promised protections. (Id. ¶ 30).
Kessler then brought suit, challenging the permit’s
revocation on First and Fourteenth Amendment grounds,
seeking injunctive relief. (Id. ¶ 32). U.S. District Judge
Glen Conrad granted Kessler’s request and reinstated
the permit. Kessler v. Cty. of Charlottesville, Virginia,
No. 3:17CV00056, 2017 U.S. Dist. LEXIS 128330, 2017
WL 3474071 (W.D. Va. Aug. 11, 2017). Turner alleges
that in response to Judge Conrad’s ruling, Defendants
Thomas and Flaherty became “enraged,” and instituted
a “special policy” for the protest, “ordering [their] officers
to ‘stand down’ . . . .” (Id. ¶¶ 40-41, 44). This alleged “stand
down” order mandated law enforcement to: “refrain
from intervening in any violent confrontations between
white supremacists and counter-protesters unless given
a command to do so.” (Id. ¶¶ 44-46). Turner alleges law
enforcement followed this “stand down” order and even
directly told counter-protesters they would “not intervene
unless given a command to do so.” (Id. ¶¶ 49-50).
It is alleged that on August 12, 2017, Turner went to
the Park as a counter-protestor. (Id. ¶¶ 9-10, 52-53). As he
allegedly protested peacefully on the sidewalk adjacent

16a
Appendix B
to the Park, “KKK members/sympathizers” exited the
Park and began “to engage counter protesters who were
on the sidewalk.” (Id. ¶ 57). Police allegedly looked on as
protesters, unprovoked, sprayed Turner in his eyes with
mace, subsequently beat him with a stick, and threw
bottles of urine at him. (Id. ¶¶ 54-55, 59, 64). He alleges
that “Charlottesville Police and Virginia State Patrol
officers stood and watched [this] for more than thirty
seconds, while doing nothing to intervene.” (Id. ¶¶ 58,
61-63). 2
Turner now asserts several claims against Defendants
premised on what is known as a “state-created danger”
theory of liability. See generally DeShaney v. Winnebago
Cty. Dep’t of Soc. Servs., 489 U.S. 189, 109 S. Ct. 998, 103
L. Ed. 2d 249 (1989). Turner alleges Defendants Thomas
and Flaherty, in their individual capacities, violated his
substantive due process rights by failing to intervene in
a state-created danger, under both direct (Count I) and
supervisory (Count II) theories of liability. He also alleges
Defendants acted with “deliberate indifference” towards
his assault (Count IV) in violation of the Fourteenth
2. After the incident in question, an unlawful assembly was
declared and “police left the scene to change into riot gear.” (Id. ¶ 70).
Plaintiff alleges that Defendants Thomas and Flaherty “ordered
their subordinates not to show up in riot gear despite” a warning by
the Department of Homeland Security three days before the rally
that the rally would be violent. (Id. at ECF 2, ¶ 70). Once equipped
with riot gear, the “police began to ‘clear’ the Park, forcing all of the
white supremacists . . . directly into the crowd of counter-protesters.”
(Id. ¶ 71). This “funneling” allegedly resulted in “multiple other
violent attacks and severe injuries.” Id. However, the injuries alleged
by Plaintiff here occurred before this alleged “funneling” took place.

17a
Appendix B
Amendment. Lastly, he alleges that municipal liability
extends to Defendant Charlottesville for violating his
substantive due process rights (Count III). See generally
Monell v. Dep’t of Soc. Servs. of City of New York, 436
U.S. 658, 98 S. Ct. 2018, 56 L. Ed. 2d 611 (1978). Turner
also seeks punitive damages (Count V) and attorney’s
fees (Count VI).
III. Subject Matter Jurisdiction
Defendant Flaherty, as superintendent of the Virginia
State Police, contends sovereign immunity bars the claims
against him. Specifically, he argues the Court lacks subject
matter jurisdiction over the supervisory liability claim,
since it was alleged against him in his official capacity.
(Dkt. 27 at ECF 12).
“[A] suit against a state official in his or her official
capacity is not a suit against the official but rather is a suit
against the official’s office. As such, it is no different from
a suit against the State itself.” Will v. Michigan Dep’t of
State Police, 491 U.S. 58, 71, 109 S. Ct. 2304, 105 L. Ed.
2d 45 (1989) (citation omitted). Section 1983 “does not
provide a federal forum for litigants who seek a remedy
against a State for alleged deprivations of civil liberties.
The Eleventh Amendment bars such suits . . . .” Id. at 66.
See also Seminole Tribe of Fla. v. Fla., 517 U.S. 44, 64,
116 S. Ct. 1114, 134 L. Ed. 2d 252 (1996) (“[T]he Eleventh
Amendment [stands] for the constitutional principle that
state sovereign immunity limit[s] the federal courts’
jurisdiction under Article III.”). 3 Unlike official capacity
3. “In effect, the Eleventh Amendment limits the ability of a
federal district court to exercise its subject-matter jurisdiction over

18a
Appendix B
suits, suits brought against defendants in their individual
capacities do not implicate sovereign immunity, as they
“seek to impose personal liability upon a government
official for actions he takes under color of state law.”
Kentucky v. Graham, 473 U.S. 159, 165-66, 105 S. Ct.
3099, 87 L. Ed. 2d 114 (1985) (emphasis added).
Here, Turner specifically alleges in his Complaint
that each claim is against Defendants Thomas and
Flaherty in their “individual capacities.” (Dkt. 1 at ECF
26-30). This express pleading is conclusive as to the
capacity of Plaintiff’s claims. Biggs v. Meadows, 66 F.3d
56, 61 (4th Cir. 1995) (holding that capacity can only be
determined by the court when not specifically alleged in
the complaint). Since the claims are against Defendants
in their individual—and not official—capacities, Eleventh
Amendment immunity is not implicated, and the Court
has subject matter jurisdiction. Therefore, Defendant
Flaherty’s motion to dismiss under 12(b)(1) will be denied.
IV. Qualified Immunity
The individual Defendants argue they are entitled to
qualified immunity, a doctrine that protects government
officials from damages lawsuits when their actions did not
violate clearly established law. Turner alleges Defendants
an action brought against a state or one of its entities. Although
not a true limit on the subject-matter jurisdiction of the federal
courts, the Eleventh Amendment is ‘a block on the exercise of that
jurisdiction.’” Roach v. W. Virginia Reg’l Jail & Corr. Facility Auth.,
74 F.3d 46, 48 (4th Cir. 1996) (quoting Biggs v. Meadows, 66 F.3d 56,
60 (4th Cir. 1995)).

19a
Appendix B
Thomas and Flaherty deprived him of substantive due
process under the Fourteenth Amendment by issuing
“stand down” orders to their officers. These preemptive
orders, he argues, resulted in law enforcement’s failure
to intervene to protect him from injuries at the hands of
third party criminal actors, advancing what is known as
a “state-created danger” theory of liability.
When determining whether a claim is barred by
qualified immunity, the Court must “decide whether
the right at issue was ‘clearly established’ at the time of
defendant’s alleged misconduct.” Pearson v. Callahan, 555
U.S. 223, 232, 129 S. Ct. 808, 172 L. Ed. 2d 565 (2009). In
conducting the clearly established analysis, courts “first
examine . . . decisions of the Supreme Court, [the Court of
Appeals for the Fourth Circuit], and [the Supreme Court
of Virginia]. We ordinarily need not look any further than
decisions from these courts.”4 Booker v. S.C. Dep’t of Corr.,
855 F.3d 533, 538-39 (4th Cir. 2017) (citations and quotation
marks omitted). In determining whether a right is clearly
established, it is not required that a case be directly on
point. Mullenix v. Luna, 136 S. Ct. 305, 308, 193 L. Ed. 2d
255 (2015). Rather “existing precedent must have placed
the statutory or constitutional question beyond debate.”
Id. Such “clearly established” rights should not be defined
“at a high level of generality,” but “must be ‘particularized’
to the facts of the case.” White v. Pauly, 137 S. Ct. 548,
4. “But when there are no such decisions from courts of
controlling authority, [courts] may look to ‘a consensus of cases
of persuasive authority’ from other jurisdictions, if such exists.”
Booker, 855 F.3d at 538-39 (emphasis in original). No such consensus
of persuasive authority is implicated here.

20a
Appendix B
552, 196 L. Ed. 2d 463 (2017). “The dispositive question
is ‘whether the violative nature of particular conduct is
clearly established.’” Mullenix, 136 S. Ct. at 308 (quoting
Ashcroft v. al-Kidd, 563 U.S. 731, 742, 131 S. Ct. 2074, 179
L. Ed. 2d 1149 (2011)) (emphasis in original); see also Hope
v. Pelzer, 536 U.S. 730, 741, 122 S. Ct. 2508, 153 L. Ed.
2d 666 (2002) (holding defendants “can still be on notice
that their conduct violates established law even in novel
factual circumstances,” so long as the law provided “fair
warning” that their conduct was unconstitutional).
Below, each claim will be analyzed to determine
whether it is suppor ted by a clearly established
constitutional right. I find that they are not, and hold
that Plaintiff’s claims against Defendants Thomas and
Flaherty are barred by qualified immunity.
A. Count I: Failure to Intervene in a State-Created
Danger
“[T]he Due Process Clause[] generally confer[s] no
affirmative right to governmental aid, even where such
aid may be necessary to secure life, liberty, or property
interests of which the government itself may not deprive
the individual. . . .” DeShaney, 489 U.S. at 196. “If the
Due Process Clause does not require the State to provide
its citizens with particular protective services, it follows
that the State cannot be held liable under the Clause for
injuries that could have been averted had it chosen to
provide them.” Id. at 196-97. Thus, “a State’s failure to
protect an individual against private violence simply does
not constitute a violation of the Due Process Clause.” Id.
at 197.

21a
Appendix B
Nonetheless, an “affirmative act” by the state—“not
its failure to act to protect [a plaintiff’s] liberty interests
against harms inflicted by other means”—can be a
deprivation of liberty which triggers “the protection of
the Due Process Clause.” Id. at 200. This “affirmative act”
exception to the general rule of nonliability is known as
the state-created danger doctrine. 5
“[T]o establish § 1983 liability based on a statecreated danger theory, a plaintiff must show [1] that
the state actor created or increased the risk of private
danger, and [2] did so directly through affirmative acts,
not merely through inaction or omission.” Doe v. Rosa,
795 F.3d 429, 439 (4th Cir. 2015). “‘Affirmative acts,’ in
the state-created danger context, are quite limited in
scope.” Id. at 441. “It cannot be that the state ‘commits
an affirmative act’ or ‘creates a danger’ every time it does
anything that makes injury at the hands of a third party
more likely. If so, the state would be liable for every crime
committed by the prisoners it released.” Pinder, 54 F.3d
at 1173 (citing Martinez v. California, 444 U.S. 277, 2845. Another exception to the general rule of nonliability occurs
when a “special relationship” exists between the plaintiff and the
state—such as when “the state restrains persons from acting
on their own behalf.” Pinder v. Johnson, 54 F.3d 1169, 1174 (4th
Cir. 1995). While the Fourth Circuit acknowledged the narrow
“special relationship” exception could apply outside the “traditional
custodial context,” it emphasized that such an affirmative duty was
a manifestation merely of “the proposition that state actors may not
disclaim liability when they themselves throw others to the lions
. . . .” Id. However, because Plaintiff does not alleged that he was in
custody, or that any special relationship existed between him and
the state, this exception is not implicated here.

22a
Appendix B
85, 100 S. Ct. 553, 62 L. Ed. 2d 481 (1980)). “While it is
true that inaction can often be artfully recharacterized
as ‘action,’ courts should resist the temptation to inject
this [state-created danger] framework into omission cases
by stretching the concept of ‘affirmative acts’ beyond the
context of immediate interactions between the officer and
the plaintiff.” Id. at 1176, n.*.
In Pinder, the plaintiff brought a § 1983 action against
a police officer and a city commissioner after her former
boyfriend murdered her three children. Id. at 1172. The
night of the murders, police responded to a domestic
disturbance call at the plaintiff’s home. Id. Upon the
officer’s arrival, the boyfriend was arrested and placed
in a squad car. Id. Plaintiff informed the officer that the
boyfriend “had threatened her in the past, and that he
had just been released from prison after being convicted
of attempted arson at [the plaintiff’s] residence some ten
months earlier.” Id. The plaintiff communicated that she
was afraid for the safety of her three children, but was
assured by the officer that the boyfriend would be locked
up overnight, and the plaintiff returned to work. Id. That
same night, the boyfriend was charged with misdemeanor
offenses and released with instructions to stay away from
the plaintiff’s home. Id. Disregarding the instructions,
the boyfriend returned to the plaintiff’s home and set fire
to it. Id. All three children died of smoke inhalation. Id.
The plaintiff brought suit against the police officer and
the county commissioner claiming, inter alia, that they
had violated their affirmative duty under the Fourteenth
Amendment to protect her and her children. Id.

23a
Appendix B
Relying upon the Supreme Court’s decision in
DeShaney,6 the Fourth Circuit held the plaintiff’s claim
was barred by qualified immunity, as she could point to “no
clearly established law supporting her claim at the time
of the alleged violation.” Id. at 1173. The court addressed,
inter alia, the plaintiff’s argument that the state engaged
in “affirmative conduct” creating or enhancing the danger.
Id. (“She emphasize[d] the ‘actions’ that [the defendant]
took in making assurances, and in deciding not to charge
[the boyfriend] with any serious offense.”). The court found
the only the party who committed the affirmative act was
the boyfriend—not the police. Id. The court reasoned that,
6. The Fourth Circuit in Pinder succinctly recounted the
Supreme Court’s decision in DeShaney:
The facts in DeShaney were as poignant as those in
this case. There, the Winnebago County Department
of Social Services (DSS) received a number of reports
that a young boy, Joshua DeShaney, was being abused
by his father. As this abuse went on, several DSS
workers personally observed the injuries that had
been inflicted on Joshua. They knew firsthand of the
threat to the boy’s safety, yet they failed to remove
him from his father’s custody or otherwise protect
him from abuse. Ultimately, Joshua’s father beat
him so violently that the boy suffered serious brain
damage. Joshua’s mother brought a § 1983 action on
his behalf, arguing that the County and its employees
had deprived Joshua of his liberty interests without
due process by failing to provide adequate protection
against his father’s violent acts. Despite natural
sympathy for the plaintiff, the Court held that there
was no § 1983 liability under these circumstances.
Pinder, 54 F.3d at 1174 (citations omitted).

24a
Appendix B
“[a]s was true in DeShaney, the state did not ‘create’ the
danger, it simply failed to provide adequate protection
from it. In both cases, ‘[t]he most that can be said of
the state functionaries . . . is that they stood by and did
nothing when suspicious circumstances dictated a more
active role for them.’” Id. at 1175-76 (quoting DeShaney,
489 U.S. at 203) (emphasis added).
Here, Turner argues Defendants affirmatively acted
by issuing the “stand down” order. However, like the
boyfriend in Pinder, the only individuals who engaged in
affirmative conduct were the third party criminal actors—
not the Defendants or their subordinates. Looking to
the “immediate interactions between the officer and the
plaintiff,” Pinder, 54 F.3d at 1176, n.*, Turner has not
alleged Defendants did anything to “directly” cause his
injuries. Rather, he alleges the “Charlottesville Police
and Virginia State Patrol officers stood and watched [the
assault] for more than thirty seconds, while doing nothing
to intervene.” (Compl. ¶ 61). Turner does allude to active
conduct by the police when they allegedly cleared out the
park and “funneled” protesters into counter-protesters.
(Compl. ¶¶ 52-69, 71). However, this allegedly occurred
after, not before, he sustained his injuries. There was
simply no affirmative act by police that created the danger
that befell Plaintiff. Framing the incident in terms of
a “stand down” order is nothing more than an “artful
recharacterization” of inaction as action—something the
Fourth Circuit in Pinder warned was inappropriate.
Ultimately, the Fourth Circuit has never issued a
published opinion finding a successful “state-created

25a
Appendix B
danger” claim. See Doe v. Rosa, 795 F.3d 429 (4th Cir.
2015) (holding no claim existed where college president
allegedly knew of, failed to report, and tried to conceal
the fact that a child molester had continued to work at
a college’s summer kids camp); Waybright v. Frederick
Cty., MD, 528 F.3d 199, 201 (4th Cir. 2008) (finding no
violation for failure to prepare for and treat firefighter
trainee’s medical needs); Pinder, 54 F.3d at 1169. Turner’s
argument there was “clear fair warning” that such a
“stand down” order violated clearly established law, (dkt.
34 at ECF 28), collapses under the weight of controlling
precedent finding there is generally no duty to intervene,
as well as Turner’s inability to identify any U.S. Supreme
Court, published Fourth Circuit, or Supreme Court of
Virginia precedent recognizing a valid state-created
danger claim.
The Fourth Circuit has explained why qualified
immunity is so important in this type of case:
The recognition of a broad constitutional
right to affirmative protection from the state
would be the first step down the slippery
slope of liability. Such a right potentially
would be implicated in nearly every instance
where a private actor inflicts injuries that
the state could have prevented. Every time
a police officer incorrectly decided it was not
necessary to intervene in a domestic dispute,
the victims of the ensuing violence could bring
a § 1983 action. . . . Indeed, victims of virtually
every crime could plausibly argue that if the

26a
Appendix B
authorities had done their job, they would not
have suffered their loss. Broad affirmative
duties thus provide a fertile bed for § 1983
litigation, and the resultant governmental
liability would wholly defeat the purposes of
qualified immunity.
Pinder, 54 F.3d at 1178 (emphasis added). Given that
warning, as well as the great weight of binding precedent
surveyed above, I find the alleged constitutional right
asserted by Plaintiff against Defendants Thomas and
Flaherty was not clearly established at the time of
Defendants’ inaction.
Accordingly, Count I is barred by qualified immunity.
B. Count II: Supervisory Liability
To state a supervisory liability claim under § 1983,
Plaintiff must satisfy three elements:
(1) that the supervisor had actual or constructive
knowledge that his subordinate was engaged in
conduct that posed “a pervasive and unreasonable
risk” of constitutional injury to citizens like the
plaintiff; (2) that the supervisor’s response to
that knowledge was so inadequate as to show
“deliberate indifference to or tacit authorization
of the alleged offensive practices,”; and (3) that
there was an “affirmative causal link” between
the supervisor’s inaction and the particular
constitutional injury suffered by the plaintiff.

27a
Appendix B
Shaw v. Stroud, 13 F.3d 791, 799 (4th Cir. 1994) (collecting
cases); Wilkins v. Montgomery, 751 F.3d 214, 226 (4th
Cir. 2014). As to the second prong of Shaw, “a plaintiff ‘[o]
rdinarily . . . cannot satisfy his burden of proof by pointing
to a single incident or isolated incidents . . . for a supervisor
cannot be expected . . . to guard against the deliberate
criminal acts of his properly trained employees when he
has no basis upon which to anticipate the misconduct.’”
Randall v. Prince George’s Cty., Md., 302 F.3d 188, 206
(4th Cir. 2002) (quoting Slakan v. Porter, 737 F.2d 368,
373 (4th Cir. 1984)).
Under Shaw, Plaintiff must make a double showing:
(1) whether supervisory liability under § 1983 was clearly
established at the time of the incident; and (2) whether
the alleged underlying constitutional violation was also
clearly established. Here, while supervisory liability in
the § 1983 context is clearly established, id. at 801, the
constitutional violation undergirding his allegation of
supervisory liability is not. As demonstrated above, see
supra Part IV.A, the right he asserts, based on a statecreated danger theory, was not clearly established at the
time of the August 12, 2017 rally. To the contrary, there
is simply no constitutional right to state protection from
“criminals or madmen,” and a state official’s failure to
provide such protection “is not actionable under § 1983.”
Doe, 795 F.3d at 440.
Accordingly, Count II is barred by qualified immunity.7
7. Plaintiff’s claim would also fail on the merits. Turner’s failure
to successfully plead a state-created danger claim directly against
Defendants forecloses on an opportunity to find such liability on a

28a
Appendix B
C. Count IV: Deliberate Indifference
Plaintiff’s also asserts claims against Defendants
Thomas and Flaherty for deliberate indifference in
violation of Plaintiff’s Fourteenth Amendment rights.
“‘The touchstone of due process is protection of the
individual against arbitrary action of government,’
whether the fault lies in a denial of fundamental
procedural fairness or in the exercise of power without
any reasonable justification in the service of a legitimate
governmental objective.” Cty. of Sacramento v. Lewis, 523
U.S. 833, 845, 118 S. Ct. 1708, 140 L. Ed. 2d 1043 (1998)
(citations omitted) (quoting Wolff v. McDonnell, 418 U.S.
539, 558, 94 S. Ct. 2963, 41 L. Ed. 2d 935 (1974)). “[I]n a
due process challenge to executive action, the threshold
question is whether the behavior of the governmental
officer is so egregious, so outrageous, that it may fairly
be said to shock the contemporary conscience.” Id. at 833
n.8. This “shocks the conscience” element is distinct from
a “deliberate indifference” standard. Sanford v. Stiles,
456 F.3d 298, 310 (3d Cir. 2006) (“We again clarify that in
any state-created danger case, the state actor’s behavior
must always shock the conscience. But what is required
to meet the conscience-shocking level will depend upon
the circumstances of each case, particularly the extent
to which deliberation is possible. In some circumstances,
deliberate indifference will be sufficient. In others, it
will not.”) (emphasis in original). The Fourth Circuit has
acknowledged that, outside of situations involving custody,
supervisory theory. Doe v. Rosa, 664 F. App’x 301, 303 n.2 (4th Cir.
2016) (noting there can be no supervisory liability when there is no
underlying violation of the Constitution).

29a
Appendix B
“the Supreme Court has never applied a ‘deliberate
indifference’ standard merely because the State created
a danger that resulted in harm.” Slaughter v. Mayor &
City Council of Baltimore, 682 F.3d 317, 321 (4th Cir. 2012)
(analyzing a deliberate indifference claim supported by a
state-created danger theory of liability).
Here, Turner alleges that Defendants “showed
deliberate indifference” to him by implementing an
unconstitutional policy, the “stand down” order, “that
substantially increased the harm to [him] and ultimately
caused his injuries.” (Compl. ¶ 84). As demonstrated above,
there is no clearly established law supporting the novel
due process right he asserts in this case. See supra Part
IV.A. Further, there is no support for his position that a
“deliberate indifference” standard is proper to satisfy the
“shocks the conscience” element of his claim, outside the
custodial context, based on a state-created danger theory.
Slaughter, 682 F.3d at 321. Moreover, Turner’s citation to
non-binding authority is insufficient to articulate a clearly
established right here. Booker, 855 F.3d at 538-39.
Accordingly, Count I V is barred by qualified
immunity. 8
8. Even assuming there was no qualified immunity and such
a violation was adequately pled, Defendants conduct during and
before the rally would not satisfy a deliberate indifference standard
on the merits:
There were officers standing by and creating a visible
presence at the park, press conferences and press
releases warning people of the potential for violence
that was beyond the ability of law enforcement to

30a
Appendix B
V. Defendant City of Charlottesville
Plaintiff has asserted a Monell claim (Count III)
against Defendant Charlottesville under the same statecreated danger theory discussed above. While Congress
intended municipalities to be considered “persons” under
§ 1983, “Congress did not intend municipalities to be held
liable unless action pursuant to official municipal policy
of some nature caused a constitutional tort.” Monell, 436
U.S. at 690-91. Among other things, a municipality may be
held liable for a particular policy under §1983 “through the
decisions of a person with final policy making authority.”
Lytle v. Doyle, 326 F.3d 463 (4th Cir. 2003). Notably,
however, “a municipality cannot be held liable under § 1983
on a respondeat superior theory.” Monell, 436 U.S. at 691.
For a municipality to be liable under 1983, a plaintiff
must demonstrate an underlying constitutional violation.
Waybright v. Frederick Cty., MD, 528 F.3d 199, 203
(4th Cir. 2008) (“[M]unicipalities cannot be liable under
§ 1983 without some predicate ‘constitutional injury at the
hands of the individual [state] officer,’ at least in suits for
damages.” (quoting City of Los Angeles v. Heller, 475 U.S.
control, a “command center” staffed with local,
state, and even national law enforcement officials,
firefighters, and ambulances, an attempt to shift the
protest to another safer park, and officers in riot gear
that eventually dispersed the assembly.
(Dkt. 31 at 18 (citing Compl. at ¶¶ 20, 23-25, 47, and 70)). Such
conduct demonstrates that Defendants took precautions in
anticipation of the rally and worked to ensure, at least on some
basic level, public safety and order would be maintained.

31a
Appendix B
796, 799, 106 S. Ct. 1571, 89 L. Ed. 2d 806 (1986))); Evans v.
Chalmers, 703 F.3d 636, 654 n.11 (4th Cir. 2012) (“Because
we hold that all plaintiffs failed to state predicate § 1983
claims against the individual officers [due to qualified
immunity], we must also hold that all plaintiffs have failed
to state supervisory liability, Monell liability, and ‘stigmaplus’ claims.”); Stevenson ex rel. Stevenson v. Martin Cty.
Bd. of Educ., 3 F. App’x 25, 33 (4th Cir. 2001) (“An award
of damages against a municipality based on the actions
of its officers is not available unless the officers’ conduct
amounted to a constitutional injury.”). Here, although the
Court explained above why the individual Defendants
are entitled to qualified immunity, see supra Part IV.A.,
the decisions in DeShaney, Pinder, Waybright, Doe, and
Stevenson all lead to the same conclusion that Plaintiff’s
underlying claims simply fail on the merits too. With no
undergirding violation, the City has no § 1983 municipal
liability.
Accordingly, Count III will be dismissed for failing
to state a claim.
VI. Conclusion
In sum, there is no clearly established constitutional
right supporting any of Plaintiff ’s claims against
Defendants Thomas and Flaherty. Therefore, Counts
I, II, and IV, are barred by qualified immunity and will
be dismissed. Even setting aside the issue of qualified
immunity, precedent forecloses Plaintiff ’s claims.
Consequently, with no underlying constitutional violation,
Plaintiff’s Monell claim against Defendant Charlottesville

32a
Appendix B
cannot survive. Therefore, Count III will be dismissed as
well. With no remaining substantive claims, Counts V and
VI (seeking attorney’s fees9 and punitive damages) will
also be dismissed.
The Clerk of the Court is hereby directed to send
a certified copy of this memorandum opinion and the
accompanying Order to all counsel of record.
Entered this 29th day of May, 2018.
/s/ Norman K. Moon
NORMAN K. MOON
SENIOR UNITED STATES
DISTRICT JUDGE

9. Technically, a request for attorney’s fees “is not a separate
cause of action.” Greene v. Phipps, No. CIVA 7:09-CV-00100, 2009
U.S. Dist. LEXIS 88462, 2009 WL 3055232, n.1 (W.D. Va. Sept. 24,
2009).

